No. _________
____________________________________________

_______
FORT BEND MECHANICAL, LIMITED; FBM
MANAGEMENT, L.L.C.; DAVID L. MEDFORD,
Petitioners,
v.
THE GIL RAMIREZ GROUP, L.L.C.;
GIL RAMIREZ, JR.,
Respondents.
_______
ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
_______

PETITION FOR A WRIT OF CERTIORARI
SUSAN J. CONTRERAS
LADER CONTRERAS, PLLC
Attorney of Record for Petitioners
17515 Spring Cypress Rd., #C250
Cypress, Texas 77429
Ph: (832) 849-5410
Fax: (832) 514-6215
scontreras@ladercontreras.com
____________________________________________

QUESTIONS PRESENTED
1.

Whether the Fifth Circuit failed to follow its own
precedent when declining to conduct a plain error
review of the sufficiency challenge due to
inconsistencies in the opinions.

2.

Whether the judgment against FBM would have
been reversed if the Fifth Circuit had reviewed
the jury verdict for plain error.

3.

Whether there is a split in the Circuit Courts on
the issue of performing appellate review of
sufficiency challenges for plain error when a
party fails to comply with Fed. R. Civ. P 50.

i

PARTIES TO THE PROCEEDINGS
Petitioner David L. Medford was an Appellant.
Petitioner Fort Bend Mechanical, Limited was an
Appellant.
Petitioner FBM
Appellant.

Management,

L.L.C.

was

an

Respondents The Gil Ramirez Group, L.L.C. and Gil
Ramirez, Jr. were the Appellees.
Respondents Lawrence Marshall, Marshall &
Associates, Joyce Moss Clay, and JM Clay and
Associates were Appellants.

ii

CORPORATE DISCLOSURE STATEMENT
Pursuant to Supreme Court Rule 14(1)(b)(ii), Fort
Bend Mechanical, Limited, declares that it has no
parent corporation and no publicly traded corporation
currently owns 10% or more of its stock.
Pursuant to Supreme Court Rule 14(1)(b)(ii), FBM
Management, L.L.C., declares that it has no parent
corporation and no publicly traded corporation
currently owns 10% or more of its stock.

iii

RELATED PROCEEDINGS
1. Gil Ramirez Group, L.L.C. v. Houston
Independent School District, No. 4:10–cv–4872
(S.D. Tex. Nov. 15, 2012).
2. Gil Ramirez Group, L.L.C. v. Houston
Independent School District, No. 4:10–cv–4872
(S.D. Tex. Jun. 25, 2013).
3. Gil Ramirez Group, L.L.C. v. Houston
Independent School District, No. 4:10–cv–4872
(S.D. Tex. Nov. 18, 2013).
4. Gil Ramirez Group, L.L.C. v. Houston
Independent School District, No. 4:10–cv–4872
(S.D. Tex. Nov. 27, 2013).
5. Gil Ramirez Group, L.L.C. v. Houston
Independent School District, No. 4:10–cv–4872
(S.D. Tex. Aug. 15, 2014).
6. Gil Ramirez Group, L.L.C. v. Houston
Independent School District, No. 13–20753,
(5th Cir. May 18, 2015).
7. Gil Ramirez Group, L.L.C. v. Houston
Independent School District, No. 4:10–cv–4872
(S.D. Tex. Sep. 13, 2016).
8. Lawrence Marshall v. The Gil Ramirez Group,
L.L.C., No. 16A344, U.S. Supreme Court (Oct.
13, 2016).
9. Gil Ramirez Group, L.L.C. v. Houston
Independent School District, No. 4:10–cv–4872
(S.D. Tex. Jan. 17, 2017).

iv

10. Gil Ramirez Group, L.L.C. v. Marshall, No. 1720542 (5th Cir. Mar. 15, 2019).

v

TABLE OF CONTENTS
QUESTIONS PRESENTED .................................. i
PARTIES TO THE PROCEEDINGS .................. ii
CORPORATE DISCLOSURE STATEMENT .. iii
RELATED PROCEEDINGS ............................... iv
TABLE OF AUTHORITIES ................................ ix
PROCEEDINGS BELOW ..................................... 1
STATEMENT OF JURISDICTION .................... 2
CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED ................................... 2
STATEMENT OF THE CASE .............................. 3
A.

Factual Background ................................................... 3

B.

Procedural Background ............................................. 6

REASONS FOR GRANTING THE PETITION . 8
A.
The Fifth Circuit’s decisions are not consistent on
whether failure to raise Rule 50 motions preclude
appellate review or whether sufficiency of the evidence
challenges should be reviewed for plain error .................. 8
B.
If the Fifth Circuit had reviewed the jury verdict
for plain error, judgment against FBM would have been
reversed because no evidence of proximate cause was
offered at trial ........................................................................ 10
C.
Besides the inconsistency in the Fifth Circuit, the
Federal Circuits are split on whether barred sufficiency
challenge for failure to file Rule 50 motions is subject to
plain error review on appeal .............................................. 14

vi

CONCLUSION ..................................................... 17
CERTIFICATE OF COMPLIANCE .................. 18

vii

APPENDIX INDEX
Fifth Circuit Opinion (03/15/2019) ........................ 1a
District Court Memorandum Order
(07/31/2017) .......................................................... 18a
Fifth Circuit Order on Petitions for
Rehearing (04/30/2019) ........................................ 60a

viii

TABLE OF AUTHORITIES
Cases
Coinmach Corp. v. Aspenwood Apartment Corp.,
417 S.W.3d 909 (Tex. 2013) .................................... 10
Consumer Products Research & Design, Inc. v.
Jensen,
572 F.3d 436 (7th Cir. 2009) .................................. 13
Conte v. Emmons,
895 F.3d 168 (2nd Cir. 2018).................................. 13
Demirovic v. Ortega,
771 Fed.Appx. 111 (2nd Cir. 2019) ........................ 13
Downey v. Strain,
510 F.3d 534 (5th Cir. 2007) .................................... 7
Elliott v. Flying J., Inc.,
243 Fed.Appx. 509 (11th Cir. 2007) ....................... 13
Gil Ramirez Group, L.L.C. v. Houston Independent
School Dist.,
786 F.3d 400 (5th Cir. 2015) .............................. 1, 10
Gil Ramirez Group, L.L.C. v. Houston Independent
School Dist.,
2017 WL 3236110 (S.D. Tex. July 31 2017) ............ 1
Gil Ramirez Group, L.L.C. v. Marshall,
765 Fed.Appx. 970 (5th Cir. 2019) ....................... 1, 6
Guile v. U.S.,
422 F.3d 221 (5th Cir. 2005) .................................. 10
Hagen v. Siouxland Obstetrics & Gynecology, PC,
799 F.3d 922 (8th Cir. 2015) .................................. 13
Johnson v. Guerrieri Mgmt., Inc.,
437 Fed.Appx. 853 (11th Cir. 2011) ....................... 13
Lewert v. Boiron, Inc.,
742 Fed.Appx. 282 (9th Cir. 2018) ......................... 13
McLendon v. Big Lots Stores, Inc.,
749 F.3d 373 (5th Cir. 2014) .................................... 8
ix

Moss v. Princip,
913 F.3d 508 (5th Cir. 2019) .................................... 9
NewCSI, Inc. v. Staffing 360 Solutions, Inc.,
865 F.3d 251 (5th Cir. 2017) .................................... 9
Nitco holding corp. v. Boujikian,
491 F.3d 1086 (9th Cir. 2007) ................................ 12
Polanco v. City of Austin, Tex.,
78 F.3d 968 (5th Cir. 1996) ...................................... 8
Price v. Rosiek Construction Co.,
509 F.3d 704 (5th Cir.2007) ..................................... 7
Roman v. Western Mfg., Inc.,
691 F. 3d 686 (5th Cir. 2012) ................................... 8
Seibert v. Jackson Cty., Miss.,
851 F.3d 430 (5th Cir. 2017) .................................... 9
Shepard v. Dallas Cty.,
591 F.3d 445 (5th Cir. 2009) .................................... 8
Stafford v. Lamorak Ins. Co.,
754 Fed.Appx. 241 (5th Cir. 2018) ........................... 7
Thomas v. Kent,
401 Fed. Appx. 864 (5th Cir. 2010) .......................... 8
U.S. v. $134,750 U.S. Currency,
535 Fed.Appx. 232 (4th Cir. 2013) ......................... 12
Unitherm Food Systems, Inc. v. Swift-Eckrich, Inc.,
546 U.S. 394, 126 S.Ct. 980, 163 L.Ed.2d 974 (2006)
.......................................................................... 7, 12
Statutes
28 U.S.C. §1254 ....................................................... 2, 7
Rules
Fed. R. Civ. P. 50 .............................................. Passim
Fed. R. Civ. P. 50(a) ............................................ 2, 6, 8
Fed. R. Civ. P. 50(b) .......................................... 2, 6, 13
x

PETITION FOR WRIT OF CERTIORARI
Petitioners Fort Bend Mechanical, Limited, FBM
Management, L.L.C. and David L. Medford ask that
this Court issue a writ of certiorari to review the
judgment of the United States Court of Appeals for the
Fifth Circuit.
PROCEEDINGS BELOW1
The decision of the United States Court of Appeals
for the Fifth Circuit, Gil Ramirez Group, L.L.C. v.
Marshall, 765 Fed.Appx. 970 (5th Cir. 2019), is
attached to this petition in the Appendix. 2 The
memorandum and order of the United States District
Court for the Southern District of Texas, Gil Ramirez
Group, L.L.C. v. Houston Independent School Dist.,
No. 4:10-CV-04872, 2017 WL 3236110 (S.D. Tex. July
31 2017), is attached to this petition in the Appendix.3
The Order on Petitions for Rehearing En Banc for the
Fifth Circuit, Gil Ramirez Group, L.L.C. v. Marshall,
is attached to this petition in the Appendix.4

This case was previously before the Fifth Circuit, but the
Appendix contains those orders pertinent to this Petition, so the
previous opinion has been intentionally omitted. See Gil Ramirez
Group, L.L.C. v. Houston Independent School Dist., 786 F.3d 400
(5th Cir. 2015).
2 Pet. App. 1a.
3 Pet. App. 18a.
4 Pet. App. 60a.
1

1

STATEMENT OF JURISDICTION
The Court of Appeals entered judgment on March
15, 2019. Petitioner filed a motion for rehearing en
banc on April 12, 2019. The Court of Appeals denied
Petitioner’s motion for rehearing on April 30, 2019.
This Court’s jurisdiction is invoked pursuant to 28
U.S.C. §1254.
CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED
1. This case involves Federal Rules of Civil
Procedure 50(a)(2), which provides that “A
motion for judgment as a matter of law may be
made at any time before the case is submitted
to the jury. The motion must specify the
judgment sought and the law and facts that
entitle the movant to the judgment.”
2. This case involves Federal Rules of Civil
Procedure 50(b), which provides in relevant
part that “If the court does not grant a motion
for judgment as a matter of law made under
Rule 50(a), the court is considered to have
submitted the action to the jury subject to the
court's later deciding the legal questions raised
by the motion. No later than 28 days after the
entry of judgment--or if the motion addresses a
jury issue not decided by a verdict, no later than
28 days after the jury was discharged--the
movant may file a renewed motion for judgment
as a matter of law and may include an
alternative or joint request for a new trial under
Rule 59.”
2

STATEMENT OF THE CASE

A. Factual Background
At issue in this lawsuit are two job order contract
(JOC) procurements for Houston Independent School
District, one that occurred in 2008 and one that was
finalized in May 2010. Among others, two of the
contractors selected in 2008 were Gil Ramirez Group
(“GRG”) and Fort Bend Mechanical (“FBM”)5.
Evidence illustrated in late 2009, GRG’s
performance began to decline. In September 2009,
GRG started to fail to acquire the required bonds,
which were a condition of performing the acquired
work. GRg also failed to maintain builders’ risk and
workers’ compensation insurance, which was
problematic, especially in light of the jobs being
performed at Houston area schools. Furthermore, the
school district did not receive copies of background
checks for all of GRG’s employees, volunteers and
subcontractors. Moreover, HISD did not receive work
schedules timely. Finally, against HISD policy, GRG
started work assignments without obtaining a notice
to proceed from the district on multiple occasions. The
cumulation of these oversights resulted in a declining
opinion of GRG’s ability to perform as a contractor in
the Houston Independent School District.
Despite the above issues, GRG received more work
of any of the other contractors during the 2008-09
period. GRG submitted 70 proposals during that
For the sake of brevity, in the remainder of this Petition,
defendants Fort Bend Mechanical, Limited, FBM Management,
L.L.C. and David L. Medford will be referenced as “Fort Bend
Mechanical” or “FBM.”
5

3

period, and they received 42 jobs. In fact, GRG earned
a half a million dollars in contracts in excess of what
Fort Bend Mechanical received.
RHJ’s addition to the list of contractors became a
contention for GRG’s alleged damages. In August
2009, RHJ settled a pending lawsuit, and they were
added to the HISD job order contract program.
Although the committee’s vote to approve them was
unanimous, GRG argued at trial that the addition of
RHJ was tainted in some way by the actions of the
defendants in this matter.
The JOCs were one-year term contracts with an
opinion of renewal. Thus, when the 2008-09 contract
ended, the HISD administration submitted an agenda
item recommending the Board renew the expiring
contracts. Meanwhile, an audit performed on the 2008
procurement process revealed some irregularities,
including how GRG received their contract. The
auditor concluded that HISD failed to comply with
Texas procurement laws governing the evaluation of
applicants and documentation of the selection process.
If HISD had followed Texas law, GRG would not have
been selected in the 2008-09 procurement process. As
such, the auditor recommended the HISD board allow
the 2008-09 contracts to expire and to have the
contractors rebid for 2010. The Board complied with
the auditor’s recommendations.
To ensure full compliance with Texas law, for the
procurement in 2010, HISD formed a committee to
evaluate the contractor’s proposals. During the
evaluation, the committee ranked each contractor
that submitted a bid based on preestablished criteria.
The committee then recommended to the Board the
top four ranked contractors.
4

In the 2010 procurement process, GRG scored
particularly low in the category of vendor’s past
relationship with the district. GRG’s total score was
66.30, while Fort Bend Mechanical’s was 87.94. GRG’s
low score reflected the previous issues in
noncompliance during the 2008-09 period. Based on
the scores given to each contractor, GRG placed tenth
out of the thirteen contractors who submitted bids. No
evidence was presented that any defendant in this
case had any influence over the ranking process that
was done by the HISD committee.
In the May 13, 2010 Board meeting, the Board
approved the committee’s recommendations with
regards to JOC contracts. The recommendation was
approved with a 7-1 vote. Fort Bend Mechanical was
one of the contractors chosen.
GRG alleged a bribery scheme involving Former
trustee Lawrence Marshall and two of GRG’s
competitors, including Fort Bend Mechanical. GRG
alleged a pay-to-play scheme in which vendors hired
Joyce Moss Clay and her company as a consultant,
upon which, Ms. Clay paid Mr. Marshall a portion of
the consulting fees, resulting in Mr. Marshall
providing favorable treatment to those particular
contracts. Fort Bend Mechanical hired Ms. Clay, and
GRG alleges that his refusal to participate in the
alleged bribery scheme resulted in reduction in
assignments under the 2008-09 contract and in GRG’s
nonselection for the 2010 JOC contract.
While the evidence demonstrated that the
transactions were questionable, no evidence was
presented that any of the alleged scheme was the
proximate cause of GRG’s nonselection in 2010.
Further, evidence did not show that GRG actually had
a reduction in assignments in 2008-09, and the
5

allegations of the cause of the reduction were based on
the addition of RHJ and not based on behaviors of Fort
Bend Mechanical.
B. Procedural Background
In December 2010, GRG brought federal and state
claims against defendants in this case. HISD,
Marshall and Joyce Moss Clay moved for summary
judgment on all claims, and the district court granted
the motions on November 18, 2013. On appeal, the
Fifth Circuit reversed, in part, the trial court’s
dismissal. Three of GRG’s claims survived: (1) RICO
claim limited to the 2008 JOC, (2) tortious
interference with prospective business relationships,
and (3) civil conspiracy.
Following remand to the district court, Marshall
moved for summary judgment, which the trial court
granted, in part, and denied, in part. Marshall
appealed the trial court’s denial of his qualified
immunity defense to this Court; however, the Fifth
Circuit dismissed the appeal. Marshall sought en banc
rehearing and a stay of proceedings from the United
States Supreme Court, both of which were denied.
Lawrence Marshall v. The Gil Ramirez Group, L.L.C.,
et al., No. 16A344, U.S. Supreme Court (Oct. 13, 2016).
The district court held a jury trial that began on
October 24, 2016. At the close of evidence, the
Marshall defendants moved for a judgment as a
matter of law under Fed. R. Civ. P. 50(a), which was
denied. After deliberations, the jury found in favor of
the plaintiff. The Marshall defendants timely renewed
the motion after the verdict pursuant to Fed. R. Civ.
P. 50(b). After having failed to move for a judgment as
6

a matter of law at the close of evidence, Fort Bend
Mechanical and the associated defendants, moved to
join Marshall’s Rule 50(b) motion, but after the 28-day
deadline, therefore untimely.
Appellants timely appealed. The Fifth Circuit held
oral argument, and during argument, when the issue
of Rule 50 motions arised, counsel for Fort Bend
Mechanical argued the sufficiency of the evidence
should be reviewed for plain error, despite the failure
to file the Rule 50 motions. After hearing oral
argument, this Court issued its unpublished opinion
on March 15, 2019, affirming the trial court’s
judgment in full. See Gil Ramirez Group, L.L.C. v.
Marshall, 765 Fed.Appx. 970 (5th Cir. 2019). 6
Regarding this defendant, in its opinion, the Fifth
Circuit held that because of Fort Bend Mechanical’s
failure to file a Rule 50(a) motion and for failing to
timely join Marshall’s 50(b) motion, the court was
powerless to review on appeal the sufficiency of the
evidence after trial. Therefore, the Fifth Circuit did
not address any of Fort Bend Mechanical’s arguments
about proximate cause and damages.
On April 12, 2019, Fort Bend Mechanical filed a
Petition for Rehearing En Banc, which was denied on
April 30, 2019. Therefore, this court gained
jurisdiction pursuant to 28 U.S.C. §1254.

6

Pet. App. 1a.

7

REASONS FOR GRANTING THE PETITION

A.

The Fifth Circuit’s decisions are not
consistent on whether failure to raise
Rule 50 motions preclude appellate
review or whether sufficiency of the
evidence challenges should be reviewed
for plain error

Opinions in the Fifth Circuit have been
inconsistent about whether plain error review
remains available in the wake of Unitherm. Stafford
v. Lamorak Ins. Co., 754 Fed.Appx. 241, 244 n.3 (5th
Cir. 2018) (identifying the inconsistency). In 2006, this
Court decided Unitherm Food Systems, Inc. v. SwiftEckrich, Inc., holding that when a party fails to file a
post-verdict motion pursuant to Fed. R. Civ. P. 50, the
appellate court cannot entertain sufficiency of the
evidence challenges. Unitherm Food Systems, Inc. v.
Swift-Eckrich, Inc., 546 U.S. 394, 395, 126 S.Ct. 980,
163 L.Ed.2d 974 (2006). Since Unitherm, the Fifth
Circuit cases have been varying and unpredictable to
whether plain error review is conducted absent a Rule
50 motion. The Fifth Circuit has occasionally reviewed
sufficiency of the evidence challenges for plain error
absent a Rule 50 motion, but in some instances, the
Fifth Circuit simply rejects this notion. The
inconsistencies among Fifth Circuit precedent creates
confusion and disorder in this Circuit. This Court’s
guidance on the interpretation of Unitherm is greatly
needed.
The earliest published Fifth Circuit decisions
following Unitherm addressing this issue held that the
Circuit court is strictly without power to review
8

unpreserved sufficiency claims. See Price v. Rosiek
Construction Co., 509 F.3d 704, 707 (5th Cir.2007);
Downey v. Strain, 510 F.3d 534, 543 (5th Cir. 2007).
Although, neither of these cases expressly rejected
plain error review. Since 2007, the Fifth Circuit has
vacillated between a stringent interpretation of
Unitherm not allowing appellate review at all and
reviewing sufficiency challenges for plain error.
Further, in Shepard v. Dallas County, a party
made a Rule 50(a) motion pre-verdict but failed to
move for judgment as a matter of law or a new trial
after the verdict. Shepard v. Dallas Cty., 591 F.3d 445,
456 (5th Cir. 2009). The court concluded that “review
is limited to plain error.” Id. (citing Polanco v. City of
Austin, Tex., 78 F.3d 968, 974 (5th Cir. 1996)). The
court defined the plain error standard as “not whether
there was substantial evidence to support the jury
verdict, but whether there was any evidence to
support the jury verdict.” Id.
Similarly, in Thomas v. Kent, the Fifth Circuit
stated that “when a party has failed to preserve the
issue of sufficiency of the evidence for appellate review
by failing to file the requisite motions, ‘the question
before this Court is not whether there was substantial
evidence to support the jury verdict, but whether
there was any evidence to support the jury verdict.’ ”
Thomas v. Kent, 401 Fed. Appx. 864, 865 (5th Cir.
2010).
Likewise, in Roman v. Western Mfg., Inc., the Fifth
Circuit again held that the failure of a party to renew
its Rule 50 motion post-verdict required the Court to
review for plain error and “uphold the jury's resolution
if we discern “any evidence” in support. Roman v.
Western Mfg., Inc., 691 F. 3d 686, 699-700 (5th Cir.
2012).
9

Reaching the opposite conclusion, the Fifth Circuit
in McLendon v. Big Lots Stores declined to review for
plain error for unpreserved sufficiency challenges, and
the court cited Price and Downey to support its
conclusion, despite Price and Downey not expressly
rejecting plain error review. McLendon v. Big Lots
Stores, Inc., 749 F.3d 373, 375 n. 2 (5th Cir. 2014).
But more recently, in Seibert v. Jackson Cty., Miss,
the Fifth Circuit held that when a party failed to raise
a Rule 50(a) motion for judgment as a matter of law
before the case goes to a jury, this Court considers the
sufficiency of the evidence under a plain error
standard of review. Seibert v. Jackson Cty., Miss., 851
F.3d 430, 435 (5th Cir. 2017). Again, in Moss v.
Princip, the party failed to raise any objections or
post-trial motions challenging the sufficiency of the
evidence, and the court held that it reviews the
sufficiency challenges for plain error. Moss v. Princip,
913 F.3d 508, 522 (5th Cir. 2019) (citing NewCSI, Inc.
v. Staffing 360 Solutions, Inc., 865 F.3d 251, 257 (5th
Cir. 2017)).
This inconsistency among cases in the Fifth Circuit
creates confusion and does not serve the interest of
justice. It is critical that this Court intervenes to
clarify the proper standard of review in this situation.
B. If the Fifth Circuit had reviewed the jury
verdict for plain error, judgment against
FBM would have been reversed because
no evidence of proximate cause was
offered at trial
Here, the Fifth Circuit refused to engage in a plain
error analysis and took the stance of strict waiver
10

which is inconsistent with many of its opinions. If this
Petition is granted, FBM will demonstrate that if the
Fifth Circuit had engaged in a plain error analysis, it
would have found no evidence to support the judgment
against FBM.
Under Texas law, to prevail on a claim for tortious
interference with prospective business relations, a
plaintiff must prove each of the following elements: (1)
there was a reasonable probability that the plaintiff
would have entered into a business relationship with
a third party, (2) the defendant either acted with a
conscious desire to prevent the relationship from
occurring or knew the interference was substantially
certain to occur as a result of the conduct, (3) the
defendant’s conduct was independently tortious or
unlawful, (4) the interference proximately caused the
plaintiff injury, and (5) the plaintiff suffered “actual
damage” or loss as a result. Coinmach Corp. v.
Aspenwood Apartment Corp., 417 S.W.3d 909, 923
(Tex. 2013).
GRG had the burden of presenting evidence to
prove proximate cause, one of the elements of the
claim for tortious interference with prospective
business relations. Evidence of proximate cause must
show that in the absence of the alleged conduct the
harm would not have occurred, and must state,
describe or explain the connection between the
conduct and the harm in sufficient detail to support
the assertion of proximate cause. Guile v. U.S., 422
F.3d 221, 227-28 (5th Cir. 2005). Here, the record has
no evidence that could meet GRG’s burden of proving
this element.
For the 2008-09 contract, GRG illustrated facts at
trial that the addition of RHJ may have reduced
GRG’s number of awarded contracts. GRG testified
11

that when RHJ was added in September of 2009, he
lost projects to RHJ. The Fifth Circuit previously
noted “GRG has produced evidence suggesting that
Marshall's preferred vendor RHJ was displacing GRG
after Ramirez spurned Marshall.” Gil Ramirez, 786
F.3d at 411. GRG did not offer any evidence that he
lost projects to FBM during the 2008-2009 contract.
Neither the expert nor GRG alleged that any of the
jobs that GRG allegedly lost were awarded to FBM.
Furthermore, facts showed that FBM was already a
JOC contractor at the time RHJ was added, and while
FBM was competing with GRG, GRG received
significantly more contracts than FBM. In fact, during
the 2008-09 contract period, FBM’s profits were
almost a half million dollars less than GRG’s. GRG’s
failure to offer any evidence that FBM proximately
caused injury relating to tortious interference with
prospective business relations requires that the
judgment under the 2008-09 contract be reversed
under the plain error standard of review.
Moreover, no evidence supported the award under
the 2010 procurement period either because GRG did
not present any facts at trial that FBM’s actions
prevented him from being awarded a contract in 2010.
Evidence shows that it is statistically impossible that
GRG could have been awarded a contract in 2010. For
the 2010 procurement, the committee scored each
contractor on Texas law mandated criteria and ranked
based on the criteria. The committee then
recommended the top four ranked contractors to the
Board for a vote. As illustrated above, GRG scored
particularly low in many of the categories. His total
score was 66.30. FBM was 87.94. There was a huge
discrepancy between the four chosen and GRG.
12

GRG ultimately finished tenth in the rankings.
The evidence showed that Mr. Marshall had no
influence over the ranking process. Further, no
evidence was offered by GRG that HISD’s failure to
renew all the contracts was influenced by FBM in any
way. Moreover, it was not alleged that the committee
process was tainted, nor was there any evidence that
is was. Since the evidence shows the ranking system
to be unaffected by FBM or any of the appellants,
GRG’s tenth place ranking was legitimate.
Further, in the Board meeting, the Board approved
the committee’s recommendations with regards to
JOC contractors and approved the recommendation
with a 7-1 vote. GRG did not allege that FBM was
bribing the other 6 Board members that voted in favor
of
the
recommendation.
And
since
the
recommendation could not have been approved
without a majority vote, it is not possible for
Marshall’s vote to proximately cause GRG’s failure to
be selected.
None of the trial testimony supported that GRG
could have been selected but for FBM’s interference.
Based on the evidence at trial, there is no statistically
possible way that GRG could have been awarded a
contract in 2010, and no evidence was offered to
suggest otherwise. Further, no evidence was offered to
suggest the actions of FBM proximately caused GRG
to not have been awarded a contract in 2010. Thus,
with there being no evidence to support the judgment
against FBM, the judgment should be reversed based
on the plain error standard of review.
FBM understands that the plain error rule is
seldomly appropriate to apply in a case; however, this
is exactly the case where it needs to be applied. Relief
under this standard is appropriate if the judgment
13

complained of results in a “manifest miscarriage of
justice,” and that is exactly what occurred to FBM
here. There was simply no evidence to support a
finding of liability against FBM.
C. Besides the inconsistency in the Fifth
Circuit, the Federal Circuits are split on
whether barred sufficiency challenge for
failure to file Rule 50 motions is subject to
plain error review on appeal
As mentioned above, in 2006, the Supreme Court
decided Unitherm which held that when a party fails
to file a post-verdict motion pursuant to Fed. R. Civ.
P. 50, the appellate court cannot entertain sufficiency
of the evidence challenges. Unitherm, 546 U.S. at 395,
126 S.Ct. 980. Since Unitherm, Circuit courts have
been split on whether the barred sufficiency challenge
is subject to plain error review.
Early on, the Ninth Circuit held that Unitherm
precludes even plain error review when a party fails
to file Rule 50 motions. Nitco holding corp. v.
Boujikian, 491 F.3d 1086, 1089 (9th Cir. 2007). The
court interpreted Unitherm’s reasoning that a district
court will make a better first-instance decision as to
the necessity of a new trial or a judgment
notwithstanding the verdict as precluding plain error
review by the court of appeals. Id. This court finds that
parties who fail to file the appropriate post-trial and
post-judgment motions strictly provide “no basis for
review of [a] sufficiency of the evidence challenge in
the Court of Appeals.” Id.
The Fourth Circuit agreed, holding that the court
of appeals is foreclosed from considering the party’s
14

sufficiency of the evidence challenge due to failing to
file the post-verdict 50(b) motion. U.S. v. $134,750
U.S. Currency, 535 Fed.Appx. 232, 236 (4th Cir. 2013).
The Seventh Circuit also aligns with the former two
circuits, holding that there is no basis for review
absent a Rule 50 motion. Consumer Products Research
& Design, Inc. v. Jensen, 572 F.3d 436, 437-38 (7th
Cir. 2009). Likewise, the Eleventh Circuit interpreted
Unitherm to preclude plain error review of the
sufficiency of the evidence absent a Rule 50(b) motion.
Johnson v. Guerrieri Mgmt., Inc., 437 Fed.Appx. 853,
857 (11th Cir. 2011). See also Elliott v. Flying J., Inc.,
243 Fed.Appx. 509, 510 (11th Cir. 2007) (holding that
the court is precluded from deciding sufficiency
challenge when party failed to file a post-verdict
motion).
On the contrary, the Second Circuit law is well
established that issues not raised in a Rule 50 motion
are reviewed for “manifest injustice.” Conte v.
Emmons, 895 F.3d 168, 175 n. 1 (2nd Cir. 2018)
(Pooler, dissenting) (citing the dissent in Unitherm
which argues that arguments raised for the first time
on appeal, whether waived or forfeited, should be
entertained “if their consideration would prevent
manifest injustice.”); see also Demirovic v. Ortega, 771
Fed.Appx. 111, 113 (2nd Cir. 2019) (holding that a
party’s failure to file a Rule 50 motion, the court may
only consider such arguments to prevent “manifest
injustice.”).
Similarly, more recently, the Ninth Circuit has
held that a procedurally barred sufficiency challenge
is reviewed for plain error. Lewert v. Boiron, Inc., 742
Fed.Appx. 282, 283 (9th Cir. 2018). Moreover, the
Eighth Circuit held that if the movant fails to file a
Rule 50 motion, the review is limited to plain error.
15

Hagen v. Siouxland Obstetrics & Gynecology, PC, 799
F.3d 922, 927 (8th Cir. 2015).
And as stated above, the Fifth Circuit generally
agrees with the latter Circuits and reviews
unpreserved sufficiency challenges for plain error.
The trend among the Circuits seems to suggest that
plain error review is the proper standard of review
when parties fail to preserve sufficiency challenges.
This conclusion is supported by the fact that many of
the Circuit Courts supporting this proposition are
more recently decided cases. Courts are beginning to
reject the notion that sufficiency challenges are
permanently waived and cannot be reviewed for the
first time on appeal.
This issue is vitally important because it does not
serve the administration of justice to uphold jury
verdicts that are not supported by any facts presented
at trial. There needs to be an appellate remedy even if
the trial counsel failed to follow the procedural rules.
It is critical for this Court to set a consistent standard
among Circuit Courts. A way to reconcile these cases
may be that plain-error review, which reviews only for
no evidence and whether there is “manifest injustice”,
is not truly a review of the sufficiency of the evidence,
which courts have held to be barred by Unitherm.
Accordingly, Petitioners respectfully urge this Court
to grant this Petition for Writ of Certiorari and resolve
this issue causing serious conflict among the Circuit
Courts.

16

CONCLUSION
For the above and foregoing reasons, Petitioners’
Petition for a Writ of Certiorari should be granted.
Respectfully submitted,
/s/ Susan J. Contreras
SUSAN J. CONTRERAS
LADER CONTRERAS, PLLC
Attorney of Record for Petitioners
17515 Spring Cypress Rd., #C250
Cypress, Texas 77429
Ph: (832) 849-5410
Fax: (832) 514-6215
scontreras@ladercontreras.com

17

CERTIFICATE OF COMPLIANCE
Pursuant to Supreme Court Rule 33.1(h) the
undersigned certifies this petition brief complies with
the word limitations of Supreme Court Rule 33.1(g) in
that it contains 4,133 words.
/s/ Susan J. Contreras
Susan J. Contreras

18

APPENDIX

765 Fed.Appx. 970
United States Court of Appeals, Fifth Circuit
The GIL RAMIREZ GROUP, L.L.C.; Gil Ramirez, Jr.,
Plaintiffs – Appellees
v.
Lawrence MARSHALL; Marshall & Associates; Joyce
Moss Clay; JM Clay and Associates; Fort Bend
Mechanical, Limited; FBM Management, L.L.C.;
David L. Medford,
Defendants – Appellants
No. 17-20542
Filed March 15, 2019
Opinion
LESLIE H. SOUTHWICK, Circuit Judge*
*Pursuant to 5th Cir. R. 47.5, the court has
determined that this opinion should not be published
and is not precedent except under the limited
circumstances set forth in 5th Cir. R. 47.5.4.
The plaintiff is a contractor who claimed a school
district employee accepted bribes in exchange for
contracts and thereby harmed the plaintiff’s business.
The plaintiff prevailed at trial. The defendants appeal
the denial of their motions for judgment as a matter of
law or a new trial. We AFFIRM.
1a

FACTUAL AND PROCEDURAL BACKGROUND
This case previously reached us after a summary
judgment, which led to a partial reversal and remand.
Our opinion detailed the factual background. Gil
Ramirez Grp., L.L.C. v. Hous. Indep. Sch. Dist. (Gil
Ramirez I), 786 F.3d 400 (5th Cir. 2015). We import
here a shorter statement of the case from the district
court’s opinion on remand:
This case involves multiple claims for relief based on
an alleged bribery scheme to procure construction
contracts. In 2010, Plaintiffs Gil Ramirez Jr. and The
Gil Ramirez Group, LLC (“GRG”) filed this action
against Houston Independent School District (“HISD”
or “the District”), former trustee Lawrence Marshall
and his consulting company, alleged coconspirator
Joyce Moss Clay and her consulting company, and two
of GRG’s competitors and their respective owners.
The alleged bribery scheme at the heart of this action
concerns HISD’s job-order contract (“JOC”) program
... GRG alleges in particular a pay-to-play scheme in
which ... vendors hired Joyce Moss Clay and her
company ... as a consultant; Ms. Clay then paid Mr.
Marshall a portion of the consulting fee; and Mr.
Marshall provided favorable treatment to those who
hired Ms. Clay. Defendants RHJ-JOC (“RHJ”) and
Fort Bend Mechanical (“FBM”), two companies
competing for and ultimately awarded JOC contracts,
hired Ms. Clay. Plaintiff contends that Mr. Ramirez’s
refusal to participate in this scheme harmed GRG’s
business, both in the reduction in assignments under
2a

[its] 2008 JOC contract, and in GRG’s nonselection as
vendor for the 2010 JOC program.
[After six years of litigation the district court] held a
14-day trial that included live and deposition
testimony from 28 witnesses. The jury found
Defendants liable for tortious interference with
prospective business relations, civil conspiracy, and
RICO violations, and awarded actual and exemplary
damages.
The district court entered a final judgment providing
that the Gil Ramirez Group (“GRG”) would recover
$676,667 in actual damages from all defendants,
jointly and severally. It further awarded GRG
punitive damages as follows: $1,400,000 from
Lawrence Marshall and his company Marshall and
Associates (“Marshall” or the “Marshall Defendants”);
$500,000 from Joyce Moss Clay and her company JM
Clay and Associates (the “Clay Defendants”); and
$500,000 from David Medford, Fort Bend Mechanical,
Ltd., and FBM Management, L.L.C. (the “Medford
Defendants”).1
The district court denied the defendants’ motions for
judgment as a matter of law or for a new trial. The
defendants timely appealed.

It also awarded $1,000,000 in punitive damages against Eva
Jackson and her company RHJ-JOC, Inc. Those defendants did
not appeal.
1

3a

DISCUSSION
I. RICO Arguments
The defendants devoted much of their briefing to the
jury’s verdict on the plaintiffs’ RICO claim. The jury
awarded damages to GRG on both its tortious
interference and its RICO claims. The district court
then applied “Texas’s one satisfaction rule, which
requires the prevailing party to elect between the
alternative claims for purposes of recovery.” Malvino
v. Delluniversita, 840 F.3d 223, 233 (5th Cir. 2016).
GRG elected to recover solely on the tortious
interference claim. So long as “the election of remedies
theory applies in this case, the issue of whether” the
unelected award “was proper is moot.” Am. Rice, Inc.
v. Producers Rice Mill, Inc., 518 F.3d 321, 341 (5th Cir.
2008).
Since we see no basis to disturb the jury’s tortious
interference award, the various RICO-specific
arguments pressed by the defendants are moot.
II. Motion for Judgment as a Matter of Law
The Marshall Defendants moved for judgment as a
matter of law at the close of evidence and timely
renewed the motion after the verdict. Judgment as a
matter of law is proper when “there is no legally
sufficient evidentiary basis for a reasonable jury to
have found for that party with respect to that issue.”
Flowers v. S. Reg’l Physician Servs. Inc., 247 F.3d 229,
235 (5th Cir. 2001) (quoting Ford v. Cimarron Ins. Co.,
230 F.3d 828, 830 (5th Cir. 2000) ).
Our standard of review is de novo but “with respect to
a jury verdict is especially deferential.” Id. (quoting
4a

Brown v. Bryan Cnty., Okla., 219 F.3d 450, 456 (5th
Cir. 2000) ). Because of the significant role of juries, a
“judgment as a matter of law should not be granted
unless the facts and inferences point ‘so strongly and
overwhelmingly in the movant’s favor that reasonable
jurors could not reach a contrary conclusion.’ ” Id.
(quoting Omnitech Int’l, Inc. v. Clorox Co., 11 F.3d
1316, 1322 (5th Cir. 1994) ).
The Clay Defendants timely moved to join in
Marshall’s motion for judgment as a matter of law and
later in his renewed motion for judgment as a matter
of law, or in the alternative, a new trial. Continuing
with their efforts to embrace the other party’s filings,
the Clay Defendants filed a Rule 28(i) letter in this
court to adopt Marshall’s brief “in so far as the
arguments are consistent and applicable to the
parties.” It is improper, though, for an appellant to
“adopt by reference fact-specific challenges” to a
verdict. United States v. Morgan, 117 F.3d 849, 853
(5th Cir. 1997). The Clay Defendants’ effort to adopt
Marshall’s statutory defenses or the challenges to the
sufficiency of the evidence fail, but we find to be valid
the adoption of Marshall’s legal arguments concerning
impossibility, his evidentiary objections, and his
challenge to the jury instructions. See United States v.
Alix, 86 F.3d 429, 434 n.2 (5th Cir. 1996).
Determining what issues the Medford Defendants
properly brought to us takes a few steps. They neither
made their own motion nor did they join Marshall’s
motion for judgment as a matter of law at the close of
evidence. The Medford Defendants also failed to “avail
themselves of Federal Rule of Civil Procedure 50(b)”
5a

after the verdict. Ortiz v. Jordan, 562 U.S. 180, 189,
131 S.Ct. 884, 178 L.Ed.2d 703 (2011). “Absent such a
motion ... an appellate court is ‘powerless’ to review
the sufficiency of the evidence after trial.” Id. (quoting
Unitherm Food Sys., Inc. v. Swift–Eckrich, Inc., 546
U.S. 394, 405, 126 S.Ct. 980, 163 L.Ed.2d 974 (2006) ).
The Medford Defendants did move to join Marshall’s
Rule 50(b) motion, but it was untimely because the
need to file within 28 days “after entry of judgment is
jurisdictional, and may not be extended.” U.S.
Leather, Inc. v. H & W P’ship, 60 F.3d 222, 225 (5th
Cir. 1995). Accordingly, we “are without power to
review” their arguments on appeal related to the
sufficiency of the evidence for the jury’s verdict on
proximate cause and damages. McLendon v. Big Lots
Stores, Inc., 749 F.3d 373, 375 n.2 (5th Cir. 2014).
A. Statutory Defenses
Marshall asserts statutory defenses that are available
only to those acting as employees of the school
district. 2 We held in the prior appeal, though, that
Marshall was not acting as an employee and was not
entitled to immunity under either the Texas Tort
Claims Act (TTCA) or the Texas Education Code. Gil
Ramirez I, 786 F.3d at 415-17.
The part of our prior decision that Marshall
challenges is when we held that even though the
The defenses are that he is entitled to immunity under the
Texas Tort Claims Act and the Texas Education Code, that GRG
failed to satisfy the exhaustion requirement of the Texas
Education Code, and that the Texas Education Code provides a
cap on damages.
2

6a

Texas Education Code’s definition of employee
explicitly applied to school board trustees like him, the
associated immunity was limited to an act “incident to
or within the scope of the duties of the employee’s
position of employment and that involves the exercise
of judgment or discretion on the part of the employee.”
Id. at 417 (emphasis omitted) (quoting TEX. EDU.
CODE. § 22.0511). We concluded that “bribery and
peddling influence are not within the scope of a
trustee’s duty.” Id.
Marshall urges us to set aside our prior decision. This
circuit, though, has a “firm rule that one panel cannot
disregard the precedent set by a prior panel even
though it perceives error in the precedent.” United
States v. 162.20 Acres of Land, More or Less, Situated
in Clay Cnty., Miss., 733 F.2d 377, 379 (5th Cir. 1984).
This “rule is no less immutable when the matter
determined by the prior panel is the interpretation of
state law” and it is “no less binding on subsequent
panels than are prior interpretations of federal law.”
F.D.I.C. v. Abraham, 137 F.3d 264, 268 (5th Cir.
1998).
We are nonetheless required to change our prior
interpretation of state law when a “subsequent state
court decision or statutory amendment ... makes this
Court’s prior decision clearly wrong.” Broussard v. S.
Pac. Transp. Co., 665 F.2d 1387, 1389 (5th Cir. 1982)
(en banc) (parentheses omitted). The phrase “clearly
wrong” means “at a minimum, a contrary ruling
squarely on point is required.” Abraham, 137 F.3d at
269.
7a

Marshall relies on a 2017 Texas Supreme Court
opinion to say this court in the 2015 appeal was clearly
wrong to conclude that immunity would not apply
when the school employee was involved in bribery and
peddling influence. See Laverie v. Wetherbe, 517
S.W.3d 748, 753 (Tex. 2017). We will take a look. In
that case, a college professor sued a colleague for
defamation after being passed over for a deanship and
a professorship, alleging the colleague made false
statements in response to inquiries from the faculty
member overseeing the job searches. Id. at 751. The
plaintiff acknowledged that the defendant outwardly
“acted within the scope of her employment” but argued
that to be entitled to immunity she was required to
“furnish conclusive evidence she was ‘serving any
purpose of her employer, as opposed to furthering her
own purposes only.’ ” Id. at 752.
The Texas Supreme Court rejected this argument. It
held that the TTCA “calls for an objective assessment
of whether the employee was doing her job when she
committed an alleged tort, not her state of mind when
she was doing it.” Id. at 753. It explained there may
still be a “connection between the employee’s job
duties and the alleged tortious conduct ... even if the
employee performs negligently or is motivated by
ulterior motives or personal animus so long as the
conduct
itself
was
pursuant
to
her
job
responsibilities.” Id.
In Marshall’s view, Laverie stands for the proposition
that “it is improper for a court to consider an
employee’s
self-serving
motivations
when
determining whether the employee’s actions were
8a

within the scope of his employment duties.” Marshall
then reasons that the district court instructed the jury
it could not find him liable unless it determined he had
“engaged in an official act,” and that after the
Supreme Court’s decision in McDonnell v. United
States, ––– U.S. ––––, 136 S.Ct. 2355, 195 L.Ed.2d 639
(2016), the only “official acts” presented to the jury
were his votes as a trustee. Marshall concludes that
even “defiling his position” by “accept[ing] bribes in
exchange for advancing the interests of certain
contractors” cannot be “wholly outside the legitimate
scope of a trustee’s duties.” Gil Ramirez I, 786 F.3d at
417.
The district court sensibly rejected this argument. It
noted that “Ms. Laverie was not on the receiving end
of a bribe.” This simple but significant distinction, by
itself, makes it difficult for Laverie to constitute a
“contrary ruling squarely on point.” The district court
also found Laverie distinguishable because Marshall’s
conduct at issue was “not exclusively his vote — one of
the possible ‘official actions’ found by the jury — but
also his other actions in the alleged pay-to-play
scheme.” This observation correctly grasps a
distinction Marshall’s arguments obscure: the essence
of bribery is not an official act itself but the agreement
to trade it for money.
“An agreement is the paradigmatic example of a
corrupt quid pro quo ... and typically results from
negotiations about the ‘price,’ i.e., how much bribe
money is needed to purchase a specific official action.”
United States v. McGregor, 879 F.Supp.2d 1308, 1317
(M.D. Ala. 2012). It is this sort of conduct that was
9a

clearly beyond the scope of Marshall’s employment.
We earlier held “bribery and peddling influence are
not within the scope of a trustee’s duty.” Gil Ramirez
I, 786 F.3d at 417. Laverie held that an employee’s
actions within the scope of her employment remained
within that scope even if the employee was “motivated
by ulterior motives or personal animus.” Laverie, 517
S.W.3d at 752-53. There is no inherent tension in
viewing office politics as distinct from pay-to-play
corruption. All of Marshall’s statutory defenses are
foreclosed by our prior decision that bribery was not
within the scope of his trustee duties.
B. Qualified Immunity
Marshall also argues the jury erred in finding he was
not protected by qualified immunity. He argues that
the state of the law was unclear after McDonnell, and
thus it could not have been “clearly established” which
specific acts might be illegal.
The district court was unpersuaded by these
arguments because GRG’s “theory of the case — which
the jury appeared to accept — is that Mr. Marshall
granted favors (including his vote to award JOC
contracts) in exchange for a bribe” and “McDonnell
does not leave room for an official to vote in a certain
way in exchange for a bribe.” We agree. The Supreme
Court was quite clear that the acceptance of bribes in
exchange for votes or the exertion of pressure to obtain
other officials’ votes continues to be unprotected by
the First Amendment. McDonnell, 136 S.Ct. at 237072.
10a

C. Legal Impossibility
Marshall argues there could not be proximate cause
for the tortious interference claim as a matter of law
because GRG’s 2008 contract was void, and even if it
was not void, because a party cannot tortiously
interfere with its own contract.
Marshall contends that the GRG contract was “void
because it violated the competitive bidding
requirements” of the Texas Education Code. TXU
Energy Retail Co. L.L.C. v. Fort Bend Indep. Sch.
Dist., 472 S.W.3d 462, 464 (Tex. App.—Dallas 2015,
no pet.). Under Texas law, “a void contract cannot
serve as the basis for a tortious interference [with an
existing contract] claim.” Jetall Cos. v. Four Seasons
Food Distribs., Inc., 474 S.W.3d 780, 784 (Tex. App.—
Houston [14th Dist.] 2014, no pet.). GRG’s claim,
though, was for tortious interference with prospective
business relations, which does not require the
existence of a contract. See Coinmach Corp. v.
Aspenwood Apartment Corp., 417 S.W.3d 909, 923
(Tex. 2013); In re Burzynski, 989 F.2d 733, 739 (5th
Cir. 1993).
The district court found that the “evidence at trial
showed” that GRG had “a reasonable chance” of
obtaining additional jobs “during the 2008 contract
window.” This remains true regardless of whether
“that contract was later found void.”
Marshall also argues, for the first time on appeal, the
affirmative defense that GRG’s tortious interference
claim was a “legal impossibility” because “a party
cannot interfere with its own contract.” We do not
11a

address this point because it was waived by the failure
to raise it in the district court. Any “arguments not
raised before the district court are waived and will not
be considered on appeal unless the party can
demonstrate extraordinary circumstances.” Lofton v.
McNeil Consumer & Specialty Pharm., 672 F.3d 372,
380-81 (5th Cir. 2012) (citation omitted). This is not
an extraordinary instance in which a failure to
consider a “purely legal issue ... will result in a
miscarriage of justice.” Heritage Bank v. Redcom
Labs., Inc., 250 F.3d 319, 326 (5th Cir. 2001).
D. Proximate Cause
Marshall asserts more generally that there was
insufficient evidence his actions were the proximate
cause of GRG’s damages. The district court listed
examples of GRG’s “affirmative evidence to support
the jury’s finding of proximate cause, even if the Court
or another fact finder might have reached a different
verdict.” It is a fair summary, fully supporting “that
the facts and inferences from the evidence do not point
so strongly and overwhelmingly against the verdict
that reasonable persons could not disagree.” Flowers,
247 F.3d at 237.
III. Evidentiary Rulings
“This court reviews evidentiary rulings for abuse of
discretion.” U.S. Bank Nat’l Ass’n v. Verizon
Commc’ns, Inc., 761 F.3d 409, 430 (5th Cir. 2014). “A
trial court abuses its discretion when its ruling is
based on an erroneous view of the law or a clearly
erroneous assessment of the evidence.” Bocanegra v.
Vicmar Servs., Inc., 320 F.3d 581, 584 (5th Cir. 2003).
12a

A. Hearsay of Ricardo Aguirre
Marshall contends that the district court erroneously
admitted hearsay when it allowed the plaintiff to
testify that Ricardo Aguirre told him that Aguirre
needed to bribe Marshall to continue receiving
business. The district court rejected Marshall’s
argument on three separate grounds: that the
testimony satisfied the statement against interest
exception in Federal Rule of Evidence 804(b)(3)(A),
that the testimony satisfied the unavailability
exception of Rule 804(a)(5)(B), and that the testimony
was not hearsay because it was a statement by a party
opponent under Rules 801(d)(2)(D) and (E). The
district court’s reasoning is sound. Marshall fails to
meaningfully address any of it on appeal. The district
court did not abuse its discretion by allowing the
testimony.
B. Expert Testimony
Marshall also takes issue with the district court’s
decision to allow testimony on damages from GRG’s
expert witness, Ransom Cornish, because Cornish
lacked experience with government procurements.3
Marshall’s argument, though, fails to identify error
because Cornish was not testifying about the
procurement process but about the calculation of
economic loss. He “did not need particular expertise in
... procurement[ ] to help the jury understand [loss
calculation] concepts and terms.” Wellogix, Inc. v.
Marshall’s objection was preserved because he raised it at trial
and in his renewed motion for judgment as a matter of law. The
Medford Defendants also argue this point on appeal, though they
did not object at trial.
3

13a

Accenture, L.L.P., 716 F.3d 867, 881-82 (5th Cir.
2013).
IV. Jury Instructions
A trial court’s determinations as to which instructions
to propound to jurors are reviewed for an abuse of the
court’s broad discretion. Eastman Chem. Co. v.
Plastipure, Inc., 775 F.3d 230, 240 (5th Cir. 2014).
Reversible error does not arise merely because of
imperfections in the charge. We will uphold the
instructions if the charge “in general correctly
instructs the jury, and any injury resulting from the
erroneous instruction is harmless.” Rogers v. Eagle
Offshore Drilling Servs., Inc., 764 F.2d 300, 303 (5th
Cir. 1985).
Some of the objections were not preserved, meaning
we review for plain error. “To meet this standard, a
party must show: ‘(1) that an error occurred; (2) that
the error was plain, which means clear or obvious; (3)
the plain error must affect substantial rights; and (4)
not correcting the error would seriously affect the
fairness, integrity, or public reputation of judicial
proceedings.’ ” Taita Chem. Co. v. Westlake Styrene,
LP, 351 F.3d 663, 668 (5th Cir. 2003) (quoting
Branch–Hines v. Hebert, 939 F.2d 1311, 1319 (5th Cir.
1991) ).
Marshall objects to the failure to give a proportionate
responsibility instruction on the tortious interference
claim, arguing it was justified by evidence of GRG’s
poor performance under the 2008 contract. A
proportionate responsibility instruction under Texas
law requires jurors to assign a percentage of
14a

responsibility for any contribution by the plaintiff to
the harm; recovery is barred if a claimant’s
responsibility is more than 50 percent. TEX. CIV.
PRAC. & REM. CODE. §§ 33.001-017.
In its denial of the renewed Rule 50 motion, the
district court held that evidence of GRG’s performance
issues was relevant to proximate cause but not to
responsibility for the tortious interference itself. Due
to “other language in the instruction,” the court
determined
the
requested
“instruction
on
proportionate responsibility for damages related to
this claim would have created unnecessary confusion.”
We conclude that proportionate responsibility was
adequately addressed by the district court’s other
instructions. The jury was instructed that should it
find “that Plaintiff would have experienced the same
... [losses] regardless of the actions of the Defendants,
[it] must find against Plaintiff on this issue.” The jury
was required to calculate damages based only on
“profits that Plaintiff lost as a natural, probable, and
foreseeable consequence of the interference with the
business relation.”
We view jury instructions as a whole, and if they “are
comprehensive, balanced, fundamentally accurate,
and not likely to confuse or mislead the jury, the
charge will be deemed adequate.” Nat’l Union Fire Ins.
Co. of Pittsburgh v. Cagle, 68 F.3d 905, 909 (5th Cir.
1995) (quoting Scheib v. Williams-McWilliams Co.,
628 F.2d 509, 511 (5th Cir. 1980) ). The additional
instruction requested here may well have created
confusion, not provided clarity. The district court did
15a

not abuse its discretion by refusing to give the
proportionate responsibility instruction.
B. Punitive Damages Instruction
On appeal, Marshall makes several arguments about
the district court’s punitive damages instruction. The
first is that GRG’s pleadings did not adequately raise
issues of malice or willful, wanton conduct. The
district court reasoned that GRG’s complaint
“described an intentional and criminal bribery
scheme” and that this “suffices to allege of malicious,
willful or wanton conduct.” We agree.
The following arguments about that instruction are
also made: the district court should have defined the
term “clear and convincing evidence”; the district
court provided an incorrect definition of “malice”; and
the district court provided a standard of “reckless
indifference” unsupported by Texas law. Those
objections, though, were not preserved because they
were not made with particularity at the jury charge
conference. See Taita Chem. Co., 351 F.3d at 668-69.
We also find no plain error, as any error in these
definitions would not affect Marshall’s substantial
rights.
Marshall also argues that the ratio of punitive to
compensatory damages violates due process. The
argument, though, is premised on an imbalance after
we order a remittitur or vacate the compensatory
damages entirely. Since we are not taking that course,
there is no due process concern.

16a

V. Motion for New Trial
The standard of review for a denial of a motion for a
new trial is “more deferential than our review of the
denial of a motion for a judgment as a matter of law.”
Hidden Oaks Ltd. v. City of Austin, 138 F.3d 1036,
1049 (5th Cir. 1998). “In light of our previous holding
that the district court correctly denied ... judgment as
a matter of law,” we find it was not an abuse of
discretion to deny the motion for a new trial. Id.
AFFIRMED.

17a

2017 WL 3236110
United States District Court, S.D. Texas, Houston
Division.
The GIL RAMIREZ GROUP, L.L.C. and Gil Ramirez,
Jr., Plaintiffs,
v.
HOUSTON INDEPENDENT SCHOOL DISTRICT,
Lawrence Marshall, Eva Jackson and RHJ-JOC, Inc.,
Defendants.
Signed 07/31/2017
MEMORANDUM & ORDER ON DEFENDANTS’
RENEWED MOTION FOR JUDGMENT AS A
MATTER OF LAW
KEITH P. ELLISON, UNITED STATES DISTRICT
JUDGE
This case involves multiple claims for relief based on
an alleged bribery scheme to procure construction
contracts. In 2010, Plaintiffs Gil Ramirez Jr. and The
Gil Ramirez Group, LLC 1 (“GRG”) filed this action
against Houston Independent School District (“HISD”
or “the District”), former trustee Lawrence Marshall
and his consulting company, alleged coconspirator
Joyce Moss Clay and her consulting company, and two
Both Mr. Ramirez and The Gil Ramirez Group, LLC, originally
filed this lawsuit. The jury charge (Doc. No. 480 at 3) defines the
Plaintiff as the Gil Ramirez Group, LLC, only. The Court uses
“Plaintiff” and “GRG” interchangeably throughout its
Memorandum & Order.
1

18a

of GRG’s competitors and their respective owners.
After six years of litigation, this Court held a 14-day
jury trial, in which the jury issued a verdict for
Plaintiff, awarding actual and exemplary damages. 2
The Defendants request that the Court overturn the
jury’s verdict as a matter of law or, alternatively,
grant a new trial. (Doc. Nos. 504, 505 and 516.) The
Court finds that either form of relief would be
inappropriate and contrary to law.
I. BACKGROUND
The Fifth Circuit ably described the factual
background of this case, and the Court need not repeat
it in detail. See Gil Ramirez Grp., L.L.C. v. Houston
Indep. Sch. Dist., 786 F.3d 400, 404–08 (5th Cir. 2015).
The alleged bribery scheme at the heart of this action
concerns HISD’s job-order contract (“JOC”) program,
through which HISD procures some of its construction
and facilities services. The HISD Board of Trustees
receives recommendations regarding vendors, and the
Board then votes on whether to offer JOC contracts to
the suggested vendors. GRG was selected as a JOC
vendor in 2008 but not in 2010. Mr. Ramirez, the
owner of GRG, alleges that he and his company were
punished for refusing to participate in the corruption
The Court entered a final judgment (Doc. No. 500), which
ordered that GRG shall recover $676,667.00 in actual damages
from all Defendants, jointly and severally. The Court also
ordered that GRG shall recover in exemplary/punitive damages:
$1,400,000.00 from Lawrence Marshall; $500,000.00 against
Joyce Moss Clay and JM Clay and Associates; $500,000.00
against David “Pete” Medford, Fort Bend Mechanical, Ltd. and
FBM Management, LLC; and $1,000,000.00 against Eva Jackson
and RHJ-JOC.
2

19a

scheme of Lawrence Marshall, former president of the
HISD Board of Trustees. GRG alleges in particular a
pay-to-play scheme in which: potential and selected
JOC vendors hired Joyce Moss Clay and her company,
JM Clay and Associates as a consultant; Ms. Clay then
paid Mr. Marshall a portion of the consulting fee; and
Mr. Marshall provided favorable treatment to those
who hired Ms. Clay. Defendants RHJ-JOC (“RHJ”)
and Fort Bend Mechanical (“FBM”), two companies
competing for and ultimately awarded JOC contracts,
hired Ms. Clay. Plaintiff contends that Mr. Ramirez’s
refusal to participate in this scheme harmed GRG’s
business, both in the reduction in assignments under
the 2008 JOC contract, and in GRG’s nonselection as
vendor for the 2010 JOC program.
In 2010, Plaintiff brought an array of federal and state
law claims against the defendants named above. After
rulings by both this Court and the Fifth Circuit, the
remaining defendants are: Lawrence Marshall and his
consulting company (“Marshall Defendants”); Joyce
Moss Clay and JM Clay and Associates (“Clay
Defendants”); FBM and its owner David “Pete”
Medford (“Medford Defendants”); and RHJ and its
owner Eva Jackson (“Jackson Defendants”). The
claims include: (1) violations of the Racketeer
Influenced Corrupt Organizations Act (“RICO”), 18
U.S.C. § 1962; and (2) state law claims for tortious
interference with prospective business relations and
civil conspiracy.
In October and November 2016, this Court held a 14day trial that included live and deposition testimony
from 28 witnesses. The jury found Defendants liable
20a

for tortious interference with prospective business
relations, civil conspiracy, and RICO violations, and
awarded actual and exemplary damages. (Doc. No.
480.)
Pending before the Court are Defendant Lawrence
Marshall’s Renewed Motion for Judgement as a
Matter of Law and, alternatively, Motion for a New
Trial (“motion” or “Defendants’ motion”) (Doc. No.
505); the Clay Defendants’ motion to join Mr.
Marshall’s motion (Doc. No. 504); and the Medford
Defendants’ motion to join Mr. Marshall’s motion
(Doc. No. 516).
II. MOTION FOR JOINDER
Mr. Marshall timely filed his motion on February 23,
2017. That same day, the Clay Defendants filed a
notice of joinder to Mr. Marshall’s motion. (Doc. No.
504.) The Medford Defendants filed a notice of joinder
to Mr. Marshall’s motion on March 28, 2017. (Doc. No.
516.) Plaintiff argues that the Clay and Medford
Defendants failed to comply with the particularity
requirements under Federal Rules of Civil Procedure
7 and 59. Plaintiff also points out that the Medford
Defendants filed their notice of joinder late.
Plaintiff maintains that the Clay Defendants’ motion
for joinder lacks particularity because it does not
specify the Clay Defendants’ reasons for a new trial.
See Fed. R. Civ. P. 7(b)(1)(B) (“motion must ... state
with particularity the grounds for seeking the order”).
The Clay Defendants state only their intention to join
Mr. Marshall’s motion, and add that there was no
evidence that Ms. Clay bribed anyone or committed
21a

illegal acts. (Doc. No. 504.) Appellate courts have
found that co-appellants in criminal cases may adopt
by reference a part of another’s brief, but “the
arguments must actually be transferable from the
proponent’s to the adopter’s case.” United States v.
Ramirez-Rivera, 800 F.3d 1, 12 n.1 (1st Cir. 2015)
(quoting United States v. Brown, 669 F.3d 10, 16 n.5
(1st Cir. 2012)). Many of Mr. Marshall’s arguments
would be applicable to the Clay Defendants, but not
all. The Court of Appeals for the D.C. Circuit has held
that “adoption by reference is permitted only to the
extent we can readily apply the proponent’s
arguments to the adopter’s case,” finding that purely
legal arguments can readily be adopted whereas factspecific ones cannot. United States v. Straker, 800
F.3d 570, 594 n.5 (D.C. Cir. 2015). The Court allows
the Clay Defendants to adopt Mr. Marshall’s legal
arguments, and thus grants the Clay Defendants’
motion to join Mr. Marshall’s motion. (Doc. No. 504.)
Plaintiff objects to the Medford Defendants’ motion for
joinder on the basis of untimeliness. A motion filed
under Rule 59 must be filed within 28 days from the
entry of judgment. Fed. R. Civ. P. 59(b). The Court
may not extend that deadline. Fed. R. Civ. P. 6(b)(2).
See also U.S. Leather, Inc. v. H & W P’ship, 60 F.3d
222, 225 (5th Cir. 1995) (“The requirement that posttrial motions be filed within the relevant ... period
after entry of judgment is jurisdictional, and may not
be extended by a waiver of the parties or by a rule of
the district court.”). Because the Medford Defendants
filed their motion for joinder late, the Court lacks
jurisdiction over it and must deny the motion. (Doc.
No. 516.) Despite this ruling, the Court will address
arguments raised by Mr. Marshall that also affect the
22a

Medford Defendants.
III. RENEWED MOTION FOR JUDGMENT AS A
MATTER OF LAW AND MOTION FOR A
NEW TRIAL
A. Legal Standards
Under Federal Rule of Civil Procedure 50, a motion for
judgment as a matter of law may be granted if a trial
court finds that a “reasonable jury would not have a
legally sufficient evidentiary basis to find for the party
on that issue.” Fed. R. Civ. P. 50(a)(1). In ruling on the
renewed motion for judgment as a matter of law, the
court may: “(1) allow judgment on the verdict, if the
jury returned a verdict; (2) order a new trial; or (3)
direct the entry of judgment as a matter of law.” Fed.
R. Civ. P. 50(b).
Federal Rule of Civil Procedure 59 states that a court
may, on motion, grant a new trial after a jury trial “for
any reason for which a new trial has heretofore been
granted in an action at law in federal court.” Fed. R.
Civ. P. 59(a)(1)(A). A court may grant a new trial if it
finds that the “verdict is against the weight of the
evidence, the damages awarded are excessive, the
trial was unfair, or prejudicial error was committed in
its course.” Smith v. Transworld Drilling Co., 773 F.2d
610, 613 (5th Cir. 1985) (internal citations omitted).
See also Beckham v. La. Dock Co., L.L.C.,124 Fed.
Appx. 268, 270 (5th Cir. 2005); Vackar v. Sentry
Supply Inc., No. CIV.A. H-12-3716, 2015 WL 338616,
at *2 (S.D. Tex. Jan. 26, 2015). “[T]he burden of
showing harmful error rests on the party seeking the
new trial.” Streber v. Hunter, 221 F.3d 701, 736 (5th
Cir. 2000). In determining whether to grant a motion
23a

for new trial, the court must view the evidence “in a
light most favorable to the jury’s verdict.” Dawson v.
Wal-Mart Stores, Inc., 978 F.2d 205, 208 (5th Cir.
1992).
B. Evidence of Proximate Cause
Defendants first argue that there is no evidence that
their actions proximately caused any injury to
Plaintiff. Specifically, they contend that the evidence
does not show that Mr. Marshall influenced or
interfered with: the addition of RHJ as a JOC
participant in 2008; the decision not to renew the 2008
JOC vendor contracts, including Plaintiff’s contract;
or the decision not to select GRG as a JOC vendor in
the 2010 procurement process. (Doc. No. 505 at 2-13.)
When a party moves for a new trial on evidentiary
grounds, a new trial should not be granted unless “the
verdict is against the great weight of the evidence.”
Pryor v. Trane Co., 138 F.3d 1024, 1026 (5th Cir.
1998). There is no legally sufficient evidentiary basis
when “ ‘the facts and inferences point so strongly and
overwhelmingly in favor of one party that the Court
believes that reasonable men could not arrive at a
contrary verdict.’ ” Rubinstein v. Adm’rs of the Tulane
Educ. Fund, 218 F.3d 392, 401 (5th Cir. 2000) (quoting
Boeing Co. v. Shipman, 411 F.2d 365, 374 (5th Cir.
1969)).
Defendants point to many instances in the testimony
when HISD administrators stated that they had no
contact with Mr. Marshall about which contractors to
consider or recommend. (See Eaglin Trial Tr. 2 at 36,
42-43; Lindsay Trial Tr. at 13-16, 33; Garrett Trial Tr.
24a

at 41; Marshall Trial Tr. at 90-91; Eastman Trial Tr.
at 165-66; Grier Trial Tr. at 64-66, 111; Grier
Deposition Tr. at 11-12, 18-19.) They also maintain
that Mr. Marshall was one of several Board members,
and his vote alone could not and did not change the
outcome of any contract selection decision.
Furthermore, GRG placed so low (10 out of 13) in the
2010 JOC procurement rankings that it was not close
to renewing its contract, regardless of Mr. Marshall’s
conduct.
Plaintiff counters that Mr. Marshall had ample
opportunity to exert pressure over administrators and
other Board members. (See Abe Saavedra Deposition
Tr. at 39-40; Watson Deposition Tr.; Pottinger Trial
Tr. at 25; Marshall Trial Tr. at 155.) Plaintiff cites
testimony suggesting that Mr. Marshall actually
exerted that pressure: he asked administrators to help
RHJ, facilitated RHJ’s award of a 2008 JOC contract,
and expected payments via Ms. Clay from JOC
vendors who wanted jobs. (See Abe Saavedra
Deposition Tr. at 39-40; Medford Recording Tr. at 6364; Pottinger Trial Tr. at 25; Marshall Trial Tr. at 100;
Ramirez Trial Tr. 1 at 241; Ramirez Trial Tr. 2 at 10,
12, 36.) Mr. Marshall—albeit along with other Board
members—voted to approve certain JOC vendors,
including firms that had hired Ms. Clay, and against
the renewal of contracts with the vendors selected in
2008. (See Medford Trial Tr. at 120, 154-55.) Plaintiff
also calls into question the validity of the rankings
before the 2010 procurement process, as the criteria
was largely subjective and easy to manipulate. (See
Medford Recording Tr. at 81; Eaglin Trial Tr. 1 at 140;
Kashani Trial Tr. at 12, 30, 91-92.) After considering
all the evidence, the jury found Mr. Marshall liable on
25a

all the claims against him. To reach this verdict, the
jury must have found that Mr. Marshall proximately
caused Plaintiff’s injuries, as required by the jury
charge. (Doc. No. 480 at 12-13.)
A motion for a new trial should not be granted if the
verdict is against “merely against the preponderance
of the evidence.” Dresser-Rand Co. v. Virtual
Automation Inc., 361 F.3d 831, 838–39 (5th Cir. 2004)
(citing Dahlen v. Gulf Crews, Inc., 281 F.3d 487, 497
(5th Cir. 2002)). When there is an “abundance of fact
and expert testimony on each side, the relative
credibility of these witnesses must be important to the
outcome of the case.” Beckham v. Louisiana Dock Co.,
124 Fed.Appx. 268, 272 (5th Cir. 2005) (citing Polanco
v. City of Austin, 78 F.3d 968 (5th Cir. 1996)). See also
Reeves v. Gen. Foods Corp., 682 F.2d 515, 519 (5th Cir.
1982) (“it is the function of the jury as the traditional
finder of the facts, and not the Court, to weigh
conflicting evidence and inferences and determine the
credibility of witnesses”); Martin v. ChesebroughPond’s, Inc., 614 F.2d 498, 500 (5th Cir. 1980) (uphold
jury’s verdict if supported by rational basis); Lowe v.
Pate Stevedoring Co., 558 F.2d 769, 772 (5th Cir. 1977)
(jury weighs conflicting evidence and inferences, and
determines witness credibility); Torrence v. Union
Barge Line Corp., 408 F.2d 873, 875 (5th Cir. 1969)
(same). The case law strongly encourages a court to
defer to the findings of the jury.
That said, to prevail at trial, “it is not enough for the
jury to disbelieve the defendant’s testimony. Rather,
the plaintiff must offer clear and convincing
affirmative proof to support a recovery.” Dollar v.
26a

Georgia-Pac. Corp., 59 F.3d 1242, 1995 WL 1242, at
*2 (5th Cir. 1995) (citing Casso v. Brand, 776 S.W.2d
551, 558 (Tex. 1989)) (emphasis in original). See also
United States v. Slone, 601 F.2d 800, 804 (5th Cir.
1979). Plaintiff provided affirmative evidence to
support the jury’s finding of proximate cause, even if
the Court or another fact finder might have reached a
different verdict. The jury deliberated for two days,
weighing the evidence of more than two dozen
witnesses. The Court respects the jury’s verdict.
C. Tortious Interference With Prospective
Business Relations
The jury found for Plaintiff and against all Defendants
on the claim for tortious interference with prospective
business
relations
(hereinafter
“tortious
interference”). (Doc. No. 480 at 15.) Defendants
contest this finding as a matter of law, on two grounds.
First, they argue that Plaintiff lacked the requisite
foundation for a tortious interference claim because
the contract that originally awarded a JOC bid to GRG
in 2008 was invalid. Second, Plaintiff failed to exhaust
all administrative remedies and was not exempted
from the exhaustion requirement.

1. Validity and Relevance of the 2008 JOC
Contract
Defendants argue that Plaintiff cannot prevail on a
tortious interference claim because the 2008 JOC
contract (awarded to GRG) was void, due to HISD’s
failure to comply with the Texas Education Code
requirements in the 2008 JOC procurement process.
27a

Defendants’ proposed jury charge included a question
on whether the 2008 JOC contract was void, but the
Court did not include such an instruction. (Doc. No.
473 at 33-34; Doc. No. 480.)
Plaintiff responds with several arguments. First, the
Fifth Circuit found that the tortious interference
claim could proceed even if the 2008 JOC contract was
awarded for reasons other than the Texas Education
Code criteria. Second, because the claim regards
prospective business relations, it does not hinge on the
validity of the 2008 JOC contract under state law.
Third, the evidence at trial failed to establish that the
2008 JOC contract was void. (Doc. No. 519 at 8-11.)
The Court finds Plaintiff’s second argument
persuasive. Plaintiff maintains the validity of the
contract is irrelevant because this claim regards
interference with prospective business relations.
“To prevail on a claim for tortious interference with
prospective business relations, the plaintiff must
establish that (1) there was a reasonable probability
that the plaintiff would have entered into a business
relationship with a third party; (2) the defendant
either acted with a conscious desire to prevent the
relationship from occurring or knew the interference
was certain or substantially certain to occur as a
result of the conduct; (3) the defendant’s conduct was
independently tortious or unlawful; (4) the
interference proximately caused the plaintiff injury;
and (5) the plaintiff suffered actual damage or loss as
a result.”
28a

Coinmach Corp. v. Aspenwood Apartment Corp., 417
S.W.3d 909, 923 (Tex. 2013) (internal citations
omitted). See also In re Burzynski, 989 F.2d 733, 739
(5th Cir. 1993). Plaintiff points out that, unlike a
claim for tortious interference with a contract, there is
no element requiring the existence of a contract. Cf.
Cuba v. Pylant, 814 F.3d 701, 717 (5th Cir. 2016) (first
element is “a contract subject to interference”).
It is clear that a tortious interference with a
prospective contract claim does not require an existing
contract. However, Defendants argue that Plaintiff
could only obtain jobs based on the 2008 JOC contract;
if that contract was void, then Plaintiff had no claim
to any jobs stemming from it. Defendants cite TXU
Energy Retail Co. L.L.C. v. Fort Bend Indep. Sch.
Dist., in which the Texas Supreme Court held that a
contract was void because it violated the competitive
bidding requirements under the Texas Education
Code, and that a contractor could not enforce the
waiver of immunity in the (now void) contract. 472
S.W.3d 462 (Tex. App.—Dallas 2015). The Court finds
TXU Energy distinguishable because, in that case, the
plaintiff wanted to enforce a term within the contract.
Here, GRG needs to show only that it had a reasonable
chance of entering the business relationship. The
evidence at trial showed that it did have a chance.
Although GRG was eligible for jobs only because of the
2008 JOC contract, Plaintiff never contended that it
was entitled to any of those jobs. Even if that contract
were later found void, during the 2008 contract
window, GRG still had that reasonable expectation
that it would receive jobs. Despite Defendants’ wellreasoned arguments, the Court upholds the jury’s
finding that Defendants interfered with Plaintiff’s
29a

prospective business relations.
2. Exhaustion of Remedies
Mr. Marshall next argues that Plaintiff cannot prevail
on its state tort claim because GRG did not exhaust
administrative remedies. The Texas Education Code §
22.0514 requires, prior to the filing of a lawsuit
against a professional employee of a school district,
exhaustion of the remedies provided by the school
district. It is undisputed that Plaintiff did not exhaust
administrative remedies before filing this suit against
Mr. Marshall. The parties discuss three possible
exceptions to the exhaustion requirement: when
exhaustion would have been futile; when the acts
challenged were outside the scope of employment; and
when the acts were “clearly illegal.” See Ogletree v.
Glen Rose Indep. Sch. Dist., 314 S.W.3d 450, 454 (Tex.
App.—Waco 2010) (“Futility is a recognized exception
to the exhaustion of administrative remedies
requirement.”); Melendez v. Houston Indep. Sch. Dist.,
418 S.W.3d 701, 710 (Tex. App.—Houston [14th Dist.]
2013)
(recognizing
exception
to
exhaustion
requirement for claims that involve parties acting
outside the scope of their employment); Texas Air
Control Bd. v. Travis Cty., 502 S.W.2d 213, 216 (Tex.
Civ. App.—Austin 1973) (principle of exhaustion of
administrative remedies sometimes relaxed in cases
where action is clearly illegal).
The Court did not present the jury with a question on
whether exhaustion would have been futile. The
parties disagree as to whether the evidence presented
at trial could support such a finding. (Doc. No. 505 at
16-19; Doc. No. 519 at 12-17; Doc. No. 525 at 2-5.) This
30a

disagreement is irrelevant to the Court’s holding, as
the Court did not rely on Plaintiff’s futility argument
in determining that Plaintiff could proceed with its
claim.
Instead, the Court holds that exhaustion was
unnecessary because Mr. Marshall’s conduct fell
outside of the scope of his employment. The Fifth
Circuit already determined that the conduct alleged
against Mr. Marshall did not fall within the scope of
his duties as a trustee. The Court of Appeals stated:
“bribery and peddling influence are not within the
scope of a trustee’s duty. He was allegedly defiling his
position and wholly outside the legitimate scope of a
trustee’s duties if he accepted bribes in exchange for
advancing the interests of certain contractors.” Gil
Ramirez, 786 F.3d at 417.
Defendants argue that the Fifth Circuit erred in
finding that Mr. Marshall’s alleged conduct fell
outside of the scope of his employment. They turn to
Laverie v. Wetherbe, in which the Texas Supreme
Court held that the scope of employment analysis
“remains fundamentally objective” and that
“subjective intent is [not] a necessary component of
the scope-of-employment analysis.” 517 S.W.3d 748,
753 (Tex. 2017). The parties disagree on the proper
interpretation of Laverie. According to Plaintiff,
“Laverie merely stands for the proposition that where
the alleged tortious acts fall entirely within an
official’s job duties, courts need not probe the
employee’s subjective intent to analyze whether the
acts were within the scope of employment.” (Doc. No.
525 at 6.) Defendants, on the other hand, argue that
31a

“because Laverie forbids inquiry into a governmental
employee’s subjective motivations, the fact that GRG
alleges that Marshall’s actions—including his official
act of voting—are criminal is immaterial to the
analysis of his entitlement to dismissal of his civil tort
claim under Texas law.” (Doc. No. 526 at 5.) According
to Defendants, even if Mr. Marshall cast his vote in
the shadow of a bribe, the act of voting fell within the
scope of his duties.
The Court instructed the jury that, to find Mr.
Marshall liable for tortious interference, it must find
that he had committed an “official act.” (Doc. No. 480
at 12.) To explain the term “official act,” the jury
instruction 3 quoted language from McDonnell v.
The instruction states: According to the Supreme Court, an
official act is a decision or action on a question, matter, cause,
suit, proceeding or controversy. The question, matter, cause, suit,
proceeding or controversy must involve a formal exercise of
governmental power that is similar in nature to a lawsuit before
a court, a determination before an agency, or a hearing before a
committee. It must also be something specific and focused that is
pending or may by law be brought before a public official. To
qualify as an official act, the public official must make a decision
or take an action on that question, matter, cause, suit, proceeding
or controversy, or agree to do so. That decision or action may
include using his official position to exert pressure on another
official to perform an official act, or to advise another official,
knowing or intending that such advice will form the basis for an
“official act” by another official. A public official is not required
to actually make a decision or take an action on a question,
matter, cause, suit, proceeding or controversy; it is enough that
the official agree to do so. The agreement need not be explicit,
and the public official need not specify the means that he will use
to perform his end of the bargain. Nor must the public official in
fact intend to perform the “official act,” so long as he agrees to do
so. Setting up a meeting, talking to another official, or organizing
3

32a

United States, 136 S. Ct. 2355, 2358 (2016).
Defendants conclude that, because the jury found that
Mr. Marshall committed an official act, his conduct
was “incident to, and squarely within, the scope of his
duties as a trustee.” (Doc. No. 526 at 4.) Given this,
the exemption to the exhaustion requirement would
not apply.
The Court rejects Defendants’ argument because
Laverie is distinguishable from this case. Unlike in
Laverie, Mr. Marshall’s conduct in question is not
exclusively his vote—one of the possible “official
actions” found by the jury—but also his other actions
in the alleged pay-to-play scheme. In contrast, the
Laverie plaintiff based his defamation claim solely on
Ms. Laverie’s statement 4 s about him as a job
applicant. The Texas Supreme Court held that Ms.
Laverie’s job duties as senior associate dean and
member of university job search committee included
sharing her knowledge about the plaintiff. Ms.
Laverie’s personal motivations for providing
unfavorable information were irrelevant to the
determination of whether or not she performed her
duties. See Laverie, 517 S.W.3d at 754-55. Her
statements, even if defamatory, were made entirely as
part of her role on the university’s search committee.
Even more importantly, Ms. Laverie was not on the
an event (or agreeing to do so)—without more—does not fit that
definition of “official act.” (Doc. No. 480 at 13.)
4 The Court need not examine Mr. Marshall’s subjective intent
when casting his vote. The Court can assess that his alleged
acceptance of bribes was objectively not “in furtherance of the
employer’s business, and for the accomplishment of the objective
for which the employee was employed.” Minyard Food Stores,
Inc. v. Goodman, 80 S.W.3d 573, 578 (Tex. 2002).

33a

receiving end of a bribe, an act that would fall beyond
the scope of her duties.
As in Laverie, other courts that have recognized
immunity for public employees have found that all of
the alleged tortious conduct fell within the scope of an
employee’s duties. See, e.g., McFadden v. Olesky, 517
S.W.3d 287 (Tex. App.—Austin 2017, pet. denied)
(police officers acted within scope of employment when
preparing arrest affidavit, even if information
supplied was false). For example, in Rosencrans v.
Altschuler, 161 S.W.3d 517 (Tex. App.—Eastland
2004), the court found that a school employee was
immune from claims of assault—Mr. Altshuler had
allegedly covered the plaintiff’s mouth with his hand
to prevent her from speaking during a business
meeting. The court held that Mr. Altshuler’s choice to
silence his colleague in this way was incident to or
within his scope of duties as a school district employee
and involved discretion or judgment, as permitted by
the Texas Education Code. Id. at 521. Rosencrans
exemplifies an expansive reading of the “scope of
employment,” but it does not change the outcome of
the instant case. No part of Mr. Marshall’s acceptance
of bribes is incidental to his duties as a trustee.
Although Mr. Marshall’s conduct includes at least one
official act (voting) that falls within the scope of his
duties, that act neither encompasses the entirety of
his conduct, nor excuses his other actions. Because
Mr. Marshall’s conduct did not fall fully within the
scope of his duties, Plaintiff is excused from
exhaustion.
The parties also dispute whether the “clearly illegal”
34a

conduct exception applies to the exhaustion
requirement. Defendants maintain that § 22.0514 of
the Texas Education Code never allowed an exception
for clearly illegal conduct, and, even if it did, Lavarie
precludes any such exception. (Doc. No. 526 at 9.)
Because the Court finds that Plaintiff is exempted
from the exhaustion requirement on other grounds, it
does not need to address this argument.
3. Professional Immunity
Defendants also contend that Mr. Marshall is entitled
to professional immunity. The Texas Education Code
§ 22.0511(a) states: “A professional employee of a
school district is not personally liable for any act that
is incident to or within the scope of the duties of the
employee’s position of employment and that involves
the exercise of judgment or discretion on the part of
the employee....” Defendants make a nearly identical
argument to the one discussed above: because the jury
found that Mr. Marshall committed an “official act,”
he was necessarily acting incident to and/or within the
scope of his duties. For the reasons addressed in the
prior section, the Court rejects Defendants’ logic. Mr.
Marshall is not protected by professional immunity.
D. Racketeer
Influenced
and
Corrupt
Organizations Act (RICO)
The jury found that two RICO enterprises existed
between the Medford, Clay and Marshall Defendants
(related to FBM) and the Jackson, Clay and Marshall
Defendants (related to RHJ). (Doc. No. 480 at 33, 46.)
The parties dispute both the interpretation of the legal
elements of a RICO claim and whether the evidence at
trial can support a factual finding that the Defendants
35a

violated RICO. Defendants argue that they should be
granted judgment as a matter of law for all RICO
claims on distinct grounds: Plaintiff was not entitled
to any damages after the JOC contract expired in
2010; the Fifth Circuit had already dismissed all
RICO claims related to FMB; there is no evidence to
support a finding of RICO liability; the Court erred in
its instruction concerning the RHJ enterprise; and the
Court’s instruction on bribery allowed the jury to find
Mr. Marshall liable for constitutionally protected
conduct. (Doc. No. 505 at 25-27.) The Court addresses
each of these arguments.5
i. Time Period for Damages
The Court instructed the jury to consider two time
periods for RICO damages: 2009 and January-May
2010. The jury awarded damages for both periods.
(Doc. No. 480 at 52.) Defendants argue that the Court
was incorrect to allow the jury to consider damages for
any time after January 2010, when the 2008 JOC
contract expired for all vendors other than RHJ.
Plaintiff counters that the relevant cutoff date is May
13, 2010, when GRG was not selected for the 2010
JOC program. The Court agrees with Plaintiff that
May 2010 is the appropriate cutoff date. The 2010
JOC contract did not begin as soon as Plaintiff’s
contract expired in January, but rather several
months later. Between January and May 2010, RHJ—
whose JOC contract began and ended later than the
other vendors’—alone received business through the
JOC program. If there existed a coordinated effort to
Plaintiff has elected to collect damages based solely on the
tortious interference claim. The Court nonetheless finds it
appropriate to address Defendants’ challenges based on RICO.
5

36a

benefit RHJ, as the jury found, then those benefits
continued until May 2010.
ii. FMB as a RICO Defendant
Defendants insist that FMB should not have been a
RICO defendant. Defendants believe this was the
Fifth Circuit’s intention, as the opinion never
discussed FBM in the context of RICO. See generally
Gil Ramirez, 786 F.3d 400. Defendants also argue that
there is no factual support to find against the Medford
Defendants for a RICO violation, as FBM performed
less work than Plaintiff during the relevant damages
time period.
The Court does not read any significance into the Fifth
Circuit’s choice not to mention FBM by name. The
Court of Appeals characterized the possible RICO
scheme as one in which Mr. Marshall used his
influence to benefit contractors who paid bribes to
him. The jury heard evidence that FBM participated
in such a scheme. The Court finds that FBM was
properly considered as a RICO defendant.
iii.

Satisfaction of RICO Elements:
Enterprise in Fact
Defendants next argue that there is no evidence to
support the jury’s finding of RICO liability because
there was neither an enterprise among, nor a pattern
of predicate acts by, Defendants. This argument gives
the Court great pause, not because of weak evidence
against Defendants but rather because of the high
threshold that courts across the country have set in
order to uphold a RICO conviction.
37a

“Claims under RICO, 18 U.S.C. § 1962, have three
common elements: ‘(1) a person who engages in (2) a
pattern of racketeering activity, (3) connected to the
acquisition, establishment, conduct, or control of an
enterprise.’ A pattern of racketeering activity consists
of two or more predicate criminal acts that are (1)
related and (2) amount to or pose a threat of continued
criminal activity.” St. Germain v. Howard, 556 F.3d
261, 263 (5th Cir. 2009) (citing Abraham v. Singh, 480
F.3d 351, 355 (5th Cir. 2007)). See also Torres v. S.G.E.
Mgmt., L.L.C., 838 F.3d 629, 636 (5th Cir. 2016);
Alpert v. Riley, No. CIV.A. H-04-3774, 2011 WL
564031, at *7 (S.D. Tex. Feb. 8, 2011). “The predicate
acts can be either state or federal crimes.” St. Germain
v. Howard, 556 F.3d at 263.
According to Plaintiff, the predicate acts were bribes
paid to Mr. Marshall and the acts Marshall took in
exchange for those bribes. (Doc. No. 519 at 23.)
Deferring to the jury’s finding that Defendants
engaged in the predicate acts, the question is whether
Defendants’ conduct was continuous as a matter of
law.
‘Continuity’ is both a closed- and open-ended concept,
referring either to a closed period of repeated conduct,
or to past conduct that by its nature projects into the
future with a threat of repetition. It is, in either case,
centrally a temporal concept—and particularly so in
the RICO context, where what must be continuous,
RICO’s predicate acts or offenses, and the relationship
these predicates must bear one to another, are distinct
requirements. A party alleging a RICO violation may
demonstrate continuity over a closed period by
38a

proving a series of related predicates extending over a
substantial period of time. Predicate acts extending
over a few weeks or months and threatening no future
criminal conduct do not satisfy this requirement:
Congress was concerned in RICO with long-term
criminal conduct. Often a RICO action will be brought
before continuity can be established in this way. In
such cases, liability depends on whether the threat of
continuity is demonstrated.
H.J. Inc. v. Nw. Bell Tel. Co., 492 U.S. 229, 241–42
(1989) (internal citations omitted) (emphasis in
original). Additionally, continuity does not require
unending activity—there may be “spurts of activity
punctuated by periods of quiescence.” Boyle v. United
States, 556 U.S. 938, 948 (2009).
“Courts have uniformly and consistently held that
schemes involving a single, narrow purpose and one
or few participants directed towards a single victim do
not satisfy the RICO requirement of closed or open
pattern continuity.” Alpert, 2011 WL 564031, at *7
(citation omitted). The Seventh Circuit noted that “a
one-time bribe to a corrupt public official is criminal
and wrong, but without more it is not enough to prove
a pattern of racketeering activity.” Empress Casino
Joliet Corp. v. Balmoral Racing Club, Inc., 831 F.3d
815, 831 (7th Cir. 2016). The Fifth Circuit has not
announced a minimum length of time to establish
continuity. The Court of Appeals found that
committing mail and wire fraud on at least 31
separate occasions, over a five-month period, did not
establish
closed-end
continuity.
Malvino
v.
Delluniversita, 840 F.3d 223, 231–32 (5th Cir. 2016).
39a

Case law reflects a high standard for continuity under
RICO, as the statute’s “goal is the “undermining of
organized crime’s influence upon legitimate
businesses.” In re McCann, 268 Fed.Appx. 359, 367
(5th Cir. 2008) (quoting Cedric Kushner Promotions,
Ltd. v. King, 533 U.S. 158, 165 (2001)). The schemes
at issue in this case undermine legitimate business,
albeit not of the scale of schemes for which the Fifth
Circuit has previously found RICO violations. See,
e.g., Abraham v. Singh, 480 F.3d 351 (5th Cir. 2007)
(reversing dismissal of RICO claims when acts of
recruiting, collecting fees, and obtaining fraudulent
visas were part of a two-year scheme “to convince up
to 200 or more Indian citizens to borrow thousands of
dollars to travel to the United States only to find upon
their arrival that things were not as they had been
promised”); United States v. Bustamante, 45 F.3d 933
(5th Cir. 1995) (upholding RICO conviction when
elected official received four-year-long payout as
reimbursement for risk-free investment in media
company).
The evidence presented at trial shows that payments
to the Clay and Marshall Defendants began in or
before 2008. (Clay Trial Tr. 1 at 13, 25; Clay Trial Tr.
2 at 9, 18; Marshall Trial Tr. at 129.) The jury found
that Mr. Marshall conferred benefits on FBM and
RHJ that endured until at least 2010. This conduct
was long, frequent and open-ended enough to satisfy
the continuity requirement, even if the time period is
shorter and the scope is narrower than in some other
RICO cases.

40a

In addition to continuity, Plaintiff bears the burden of
demonstrating an enterprise. “To establish an
‘association in fact’ enterprise under 18 U.S.C. §
1961(4) plaintiffs must show evidence of an ongoing
organization, formal or informal, and evidence that
the various associates function as a continuing unit.”
Atkinson v. Anadarko Bank & Trust Co., 808 F.2d 438,
441 (5th Cir. 1987) (citing United States v. Turkette,
452 U.S. 576, 583 (1981); Shaffer v. Williams, 794 F.2d
1030, 1032 (5th Cir. 1986)). Mr. Marshall argues that
there cannot be an enterprise because these
Defendants have no entity separate and apart from
their activity.
The Fifth Circuit has held: “An association-in-fact
enterprise ‘must have an ongoing organization or be a
continuing unit, such that the enterprise has an
existence that can be defined apart from the
commission of the predicate acts.’ ” Zastrow v.
Houston Auto Imports Greenway Ltd., 789 F.3d 553,
562 (5th Cir. 2015) (quoting Montesano v. Seafirst
Commercial Corp., 818 F.2d 423, 427 (5th Cir. 1987)).
A complaint that “alleges an enterprise created by the
alleged racketeering activity itself ... is obviously not
sufficient to plead the existence of an enterprise
separate and apart from the pattern of racketeering
activity in which it engages.” Id.
The Supreme Court has opined on the phrase “beyond
that inherent in the pattern of racketeering activity in
which it engages.” Boyle, 556 U.S. at 946. The Boyle
court explained that “the existence of an enterprise is
an element distinct from the pattern of racketeering
activity and ‘proof of one does not necessarily establish
41a

the other.’ ” Id. at 947 (citing Turkette, 452 U.S. at
583). It also noted that “if the phrase is used to mean
that the existence of an enterprise may never be
inferred from the evidence showing that persons
associated with the enterprise engaged in a pattern of
racketeering activity, it is incorrect.... [T]he evidence
used to prove the pattern of racketeering activity and
the evidence establishing an enterprise ‘may in
particular cases coalesce.’ ” Id. at 947 (quoting
Turkette, 452 U.S. at 583).
The Court finds that the evidence presented in this
case shows an enterprise. The evidence substantiating
a pattern of racketeering activity heavily overlaps
with the evidence showing an enterprise. However,
the evidence also reflects an association beyond the
predicate acts. The Clay and Marshall Defendants set
up businesses and reported their income as legitimate.
The record reflects that Mr. Medford and Ms. Jackson
hired Ms. Clay for her consulting services; Mr.
Marshall and Ms. Clay testified about the mentorship
that he provided to her. (Clay Trial Tr. 1 at 31-32; Clay
Trial Tr. 2 at 8-11; Marshall Trial Tr. at 11-13, 19,
143.) These relationships, even if they laid the
foundation for a pay-to-play scheme, indicate an
association beyond a single payment or vote.
The facts in this case are distinguishable from those
in which the Court of Appeals did not find an
enterprise. In Zastrow, the defendants—a car
dealership and the company’s lawyer—became a unit
only because they allegedly coordinated to threaten
and retaliate against the plaintiff after he testified in
a lawsuit. 789 F.3d at 558. Similarly in Whelan v.
42a

Winchester Prod. Co., the defendants were connected
only through the purchase of a well bore, which was
also part of the alleged predicate act to fraudulently
obtain mineral interests. 319 F.3d 225, 227 (5th Cir.
2003). In these cases, among others, the plaintiff did
not allege any association among the defendants other
than their conduct related to the RICO scheme. See,
e.g., Shaffer v. Williams, 794 F.2d 1030, 1033 (5th Cir.
1986) (defendants’ engagement in various aspects of
petroleum industry and possible unspecified
contractual relations among them was insufficient to
show enterprise); Atkinson v. Anadarko Bank & Tr.
Co., 808 F.2d 438, 441 (5th Cir. 1987) (bank, holding
company, and bank employees not an ongoing
association apart from bank). In contrast, Plaintiff
alleged and provided evidence of ongoing
relationships between Defendants that included, but
were not limited to, the predicate acts. The Court finds
that this is sufficient to show a RICO enterprise.
iv. Instruction on Campaign Bribery
The Court included an instruction on bribery through
a political contribution statute as one of the possible
predicate acts. With respect to the Jackson-ClayMarshall (RHJ) enterprise, the parties agree that this
inclusion is in error, but disagree on whether it is
reversible.
Defendants state they are entitled to judgment in
their favor because the Court may not “instruct a jury
on an issue of law on which there is no evidence.” See
Ware v. Reed, 709 F.2d 345, 352 (5th Cir. 1983).
Plaintiff counters that there was significant evidence
of non-campaign related payments from RHJ to Ms.
43a

Clay, and therefore the jury could and did base its
finding of RICO liability on that evidence.
If the court errs in a legal instruction, it is reversible
error. See Kicklighter v. Nails by Jannee, Inc., 616
F.2d 734, 742 (5th Cir. 1980) (when plaintiff asserts
several theories of recovery and one is in error, court
is “required to assume that the jury followed only the
erroneous instruction”). However, when a court has
submitted a charge that lacks factual support, this is
not reversible. The Fifth Circuit, interpreting
Supreme Court precedent, found that “the Stromberg
rule [requiring reversal when one of possible bases for
jury’s verdict was unconstitutional] should be applied
only when jurors have been left the option of relying
on a legally inadequate theory, not a factually
inadequate theory. Thus we will not reverse a verdict
simply because the jury might have decided on a
ground that was supported by insufficient evidence.”
Walther v. Lone Star Gas Co., 952 F.2d 119, 126 (5th
Cir. 1992) (emphasis in original). The Supreme Court
stated: “We are aware of [no context] in which we have
set aside a general verdict because one of the possible
bases of conviction was neither unconstitutional as in
Stromberg, nor even illegal as in Yates, but merely
unsupported by sufficient evidence.” Griffin v. United
States, 502 U.S. 46, 56 (1991).
The campaign bribery instruction is in error because
it is unsupported by the facts, not because it is a
legally inadequate theory. The jury, as long as it relied
only on the evidence presented, could not have found
that RHJ violated the campaign bribery statute. Thus,
this instruction was not reversible error. The Court is
44a

nonetheless sympathetic to concerns about imprecise
instructions and regrets its error, harmless or not.
v. Instruction on Bribery
Defendants argue that the RICO instruction is
deficient because the Court did not provide the same
definition of “official act” as it did in the instruction on
tortious interference. Defendants contend that this
lack of specificity enabled the jury to find Mr.
Marshall liable for conduct that was in fact protected
by McDonnell v. United States, 136 S. Ct. 2355 (2016).
They cite United States v. Silver, No. 16-1615-CR,
2017 WL 2978386 (2d Cir. July 13, 2017), in which the
Court of Appeals for the Second Circuit recently
overturned a RICO conviction because the trial court
provided instructions that did not conform to
McDonnell. The instructions in Silver are distinct
from the instruction in this case. The Silver jury was
informed that the defendant could be liable for “any
action taken or to be taken under color of official
authority.” Silver, 2017 WL 2978386 at *13. This
Court’s RICO jury instruction, in contrast, allowed a
finding of liability only if:
“the Defendant intentionally or knowingly offered
another or conferred on another or agreed to confer on
another or solicited from another or accepted from
another or agreed to accept from another any benefit
as consideration for the recipient’s decision or opinion
or recommendation or vote or other exercise of
discretion such as the exertion of pressure on
colleagues as a public servant ...”
(Doc. No. 480 at 30.) This instruction is narrower than
45a

the Silver instruction and is consistent with
McDonnell. Although the Court could and perhaps
should have provided further detail as to the types of
conduct permitted by McDonnell, such detail was not
necessary to properly instruct the jury on the bounds
of legal and illegal conduct. When viewed in their
entirety, the jury instructions could not have induced
the jury to find Mr. Marshall liable for committing a
predicate act that is legal. The Court upholds the
jury’s finding of liability under RICO. Again, however,
the discussion is academic since Plaintiff has chosen
to collect damages solely on grounds of tortious
interference. See Footnote 5.
E. Damages
i. Sufficiency of the Evidence
Defendants contend that the evidence cannot support
a finding of damages, under either RICO or state law
claims. Defendants object to Mr. Cornish’s
certification as an expert witness and his testimony
regarding Plaintiff’s loss. Defendants argue that any
damages award would be purely speculative, in light
of the insufficient evidence presented.
Under Texas law, an injured party must “establish the
amount of the loss by competent evidence with
reasonable certainty. Quite simply, lost profit
damages may not be based on evidence that is
speculative, uncertain, contingent, or hypothetical.”
Amigo Broad., LP v. Spanish Broad. Sys., Inc., 521
F.3d 472, 483 (5th Cir. 2008) (internal citations
omitted). The general rule that:
“damages are not permitted which are remote and
speculative in nature ... serves to preclude recovery,
46a

however, only where the fact of damage is uncertain,
i.e., where the damage claimed is not the certain
result of the wrong, not where the amount of damage
alone is uncertain.... Thus, although to set a damage
figure arbitrarily or through pure guesswork is
impermissible, once the existence of damages has
been shown, all that an award of damages requires is
substantial evidence in the record to permit a
factfinder to draw reasonable inferences and make a
fair and reasonable assessment of the amount of
damages.
Clearline Techs. Ltd. v. Cooper B-Line, Inc., 948 F.
Supp. 2d 691, 706 (S.D. Tex. 2013) (citing Broan Mfg.
Co., Inc. v. Associated Distribs., Inc., 923 F.2d 1232,
1235-36 (6th Cir. 1991)).
“If the award of damages is plausible in light of the
record, a reviewing court should not reverse the award
even if it might have come to a different conclusion.”
Dresser-Rand, 361 F.3d at 843. The Court should
consider whether reasonable jurors could reach their
conclusion, based on the evidence. See Wellogix, Inc. v.
Accenture, L.L.P., 716 F.3d 867, 880 (5th Cir. 2013).
Mr. Cornish provided testimony regarding damages,
using several different models, and Defendants cross
examined him on his qualifications, methodology and
findings. (Cornish Trial Tr.) The jury had an
opportunity to disbelieve Mr. Cornish’s testimony and
conclusions, and the Court finds that the jury could
have properly reached its damages award based on
the evidence presented.

47a

ii. Instruction on Proportionate Responsibility
Defendants state that the Court committed reversible
error by not submitting an instruction to the jury on
Plaintiff’s proportionate responsibility for the claim of
tortious interference with prospective business
relations. Under the Texas Civil Practices and
Remedies Code § 33.001, a plaintiff may not recover
damages if his percentage of responsibility is greater
than 50 percent. The Act continues:
(a) The trier of fact, as to each cause of action asserted,
shall determine the percentage of responsibility,
stated in whole numbers, for the following persons
with respect to each person’s causing or contributing
to cause in any way the harm for which recovery of
damages is sought, whether by negligent act or
omission, by any defective or unreasonably dangerous
product, by other conduct or activity that violates an
applicable legal standard, or by any combination of
these:
(1) each claimant;
(2) each defendant;
(3) each settling person; and
(4) each responsible third party who has been
designated under Section 33.004.
(b) This section does not allow a submission to the jury
of a question regarding conduct by any person without
sufficient evidence to support the submission.
Plaintiff argues that the lack of a proportionate
responsibility instruction was not erroneous because
there was insufficient evidence to support the notion
that Plaintiff was responsible for its harm (loss of
business). Plaintiff acknowledges that there was
48a

limited evidence about Plaintiff’s “poor performance,”
but that this was presented in an attempt to show an
alternative theory of causation for GRG’s loss of jobs,
not to show proportionate responsibility in an act of
tortious interference. Plaintiff further argues that the
exclusion was harmless because the jury would not
have awarded damages to Plaintiff if it had credited
Defendants’ theory that poor performance was the
cause in drop-off of work or non-renewal. (Doc. No. 519
at 30-31.)
An appellate court “will reverse if the trial court
denies a proper submission of a settling person’s
proportionate responsibility, and the error probably
caused the rendition of an improper judgment.” Janga
v. Colombrito, 358 S.W.3d 403, 413 (Tex. App.—Dallas
2011) (citing MCI Sales & Serv., Inc. v. Hinton, 272
S.W.3d 17, 43 (Tex. App.—Waco 2008)). To find
reversible error, there must have been evidence to
make submission of the actor’s responsibility
appropriate, and the failure to submit must have
made a difference in the outcome.
The Court finds that there was not sufficient evidence
to submit a proportionate responsibility instruction.
The
evidence
concerning
Plaintiff’s
poor
performance—discussed only in Mr. Bailes’ deposition
testimony 6 —speaks to the issue of causation, not
Defendants cite only witness Darryl Bailes’ testimony when
arguing that GRG was responsible for its own job losses. Mr.
Bailes testified that GRG was tardy and somewhat irresponsible
in terms of submitting proper paperwork, and that GRG
performed poorly in a job to renovate a playground. (Bailes Trial
Tr. 1 at 12; Bailes Trial Tr. 2 at 227-247.) Although the Court
recognizes that this evidence could show poor performance by
6

49a

responsibility for tortious interference. To find against
Defendants, the jury was required to find that they
had proximately caused the drop off in GRG’s
business. (Doc. No. 480 at 13.) It would be illogical to
instruct the jury that they could simultaneously find
that Defendants and Plaintiff had interfered in
Plaintiff’s prospective business relations. Although
Plaintiff could have been the cause of its own harm, it
would not have caused that harm through tortious
interference with its own business relations. An
instruction on proportionate responsibility for
damages related to this claim would have created
unnecessary confusion.
Other language in the instruction made clear that the
jury should not find against Defendants or award
damages if GRG was responsible for its loss of
business. The tortious interference instruction
concludes: “if you find that Plaintiff would have
experienced the same drop off in its work or would not
have been selected as a contractor or awarded a
contract for the 2010 JOC procurement regardless of
the actions of the Defendants, you must find against
Plaintiff on this issue.” (Doc. No. 480 at 13-14.) If the
jury found that Plaintiff’s performance brought about
the drop off in work, it should not have found that the
proximate cause element was satisfied. Furthermore,
in considering damages, the jury was allowed to
calculate damages only for tortious interference based
on “profits that Plaintiff lost as a natural, probable,
and foreseeable consequence of the interference with
GRG, this testimony would affect whether Defendants
proximately caused GRG’s loss of business, not whether GRG
was responsible for interference with its own business relations.

50a

the business relation.” (Doc. 480 at 20.) Based on this
instruction, the jury should not have awarded any
damages for any losses that Plaintiff may have
suffered from its own poor performance.
Appellate courts have repeatedly found harmful error
for failing to include a proportionate responsibility
instruction. Such cases usually involve the lack of a
proportionate responsibility instruction regarding
settling parties, or plaintiffs who were obviously
responsible for their own injuries. See, e.g., Smith v.
Sewell, 858 S.W.2d 350, 356 (Tex. 1993) (plaintiff
injured due to his own intoxication); Janga, 358
S.W.3d at 413–14 (undisputed evidence of negligence
by settling party); Memphis, Inc. v. Coggswell, No. 0502-01876-CV, 2005 WL 1774973, at *3 (Tex. App.—
Dallas July 28, 2005) (defendant and non-party both
found to have caused proximate harm to plaintiff);
MCI Sales, 272 S.W.3d at 42–43 (legally sufficient
evidence to find settling party responsible); Olympic
Arms, Inc. v. Green, 176 S.W.3d 567, 576 (Tex. App.—
Houston [1st Dist.] 2004) (no jury question submitted
regarding settling co-defendant’s responsibility).
Unlike the cited cases, the instructions in the instant
matter provided an opportunity for the jury to find
that Plaintiff was responsible for the harm it suffered.
Had the jury found Plaintiff responsible for any of its
harm, it should not have made a finding for, or
awarded damages to, Plaintiff.
The Court maintains that an instruction on
proportionate responsibility would have been
inappropriate based on the evidence presented,
confusing to the jury, and redundant in light of the
51a

instruction provided. The jury’s finding of damages for
Plaintiff was not in error.
iii. Exemplary/Punitive Damages
The jury awarded to Plaintiff exemplary damages
totaling $3,400,000.00 (and no more than
$1,400,000.00 against any single Defendant, see supra
n. 2). (Doc. No. 480 at 24-25.) Defendants argue that
the Court erred in including an instruction on
exemplary damages because Plaintiff did not plead
specific entitlement to exemplary damages in the live
complaint.
To uphold an exemplary (also called punitive)
damages award, the plaintiff must either “pray for
punitive damages or allege malice or willful, wanton
conduct.” AON Properties, Inc. v. Riveraine Corp., No.
14-96-00229-CV, 1999 WL 12739, at *20 (Tex. App.—
Houston [14th Dist.] Jan. 14, 1999). Defendants
maintain that Plaintiff never alleged such conduct,
and thus did not put Defendants on notice that they
were seeking punitive damages. Additionally,
Defendants say that the Court erred by failing to
include the following information in its instruction:
the definitions of malice, gross negligence, and fraud;
which factors properly to consider in awarding
punitive damages; and that a finding of punitive
damages must be unanimous. Finally, because
Defendants insist that there was no evidence of actual
damages, a finding of punitive damages exceeds the
permissible four-to-one ratio. (Doc. No. 505 at 40-47.)
See State Farm Mut. Auto. Ins. Co. v. Campbell, 538
U.S. 408, 425 (2003) (“more than four times the
amount of compensatory damages might be close to
52a

the line of constitutional impropriety”).
Defendants raised only some of these arguments in
their proposed jury instructions or in the jury charge
conference. (Doc. No. 473; Charge Conference Tr. at
93) Mr. Marshall requested that no punitive damages
instruction be submitted to the jury and specifically
objected to allowing consideration of Defendants’
financial resources. (Charge Conference Tr. at 92-93.)
The Court removed only the language regarding
Defendants’ financial resources. As Defendants did
not previously raise objections regarding the
definitions, they have waived those arguments. See
Fed. R. Civ. P. 51; Taita Chem. Co. v. Westlake
Styrene, LP, 351 F.3d 663, 667 (5th Cir. 2003).
Moreover, Plaintiff’s complaint, which described an
intentional and criminal bribery scheme among the
Defendants, suffices to allege of malicious, willful or
wanton conduct. 7 (See Fourth Amended Complaint,
Doc. No. 181.) Finally, as discussed above, the
evidence supports the jury’s finding of actual
damages; thus the exemplary damages award is
proportional to the actual damages amount. The
Court upholds the jury’s award for exemplary
damages.
Plaintiff’s Fourth Amended Complaint includes the specific
allegation that Defendants “willfully and intentionally interfered
with the contract so as to secure business for their own benefit.”
(Doc. No. 181. ¶ 163). Defendants argue that this line did not
survive the Fifth Circuit’s opinion, which dismissed Plaintiff’s
claim for tortious interference with an existing contract. Even if
this line should not be considered, the Court finds that the
complaint as a whole put Defendants on notice early in the
litigation that Plaintiff was alleging willful and wanton conduct
and would likely seek punitive damages.
7

53a

F. Objections to Evidence
Defendants contend that the Court improperly
allowed several pieces of evidence. The Court
disagrees.
i. Adverse Interference Instruction
Defendants object to the Court’s instruction that the
jury could make an adverse inference against Mr.
Marshall because of witnesses Ricardo Aguierre’s and
Frankie Wong’s partial invocations of the Fifth
Amendment. (See Doc. No. 480 at 11.) Defendants
believe the instruction was inappropriate because
Plaintiff did not plead or prove that Mr. Aguirre or Mr.
Wong participated in the alleged criminal enterprises.
Defendants’ argument is unsupported by case law. In
F.D.I.C. v. Fid. & Deposit Co. of Maryland, 45 F.3d
969, 977 (5th Cir. 1995), the Fifth Circuit considered
a case in which a non-party witness invoked the Fifth
Amendment. The Court of Appeals explained that the
“Fifth Amendment ‘does not forbid adverse inferences
against parties to civil actions when they refuse to
testify in response to probative evidence offered
against them’ ” and a “non-party’s silence in a civil
proceeding implicates Fifth Amendment concerns to
an even lesser degree’ ” than a party’s silence. Id.
(quoting Baxter v. Palmigiano, 425 U.S. 308, 318
(1976); RAD Servs., Inc. v. Aetna Casualty & Sur. Co.,
808 F.2d 271, 275 (3d Cir. 1986)).
This Court’s instruction tracks language upheld in
RAD Servs., and states that “you [the jury] may, but
are not required to, infer that his testimony would
have been unfavorable to the Defendants.” (Doc. No.
54a

480 at 11.) See RAD Servs., Inc., 808 F.2d at 277 (“You
may, but you need not, infer by such refusal that the
answers would have been adverse to the plaintiff’s
interests.”). The Court’s instruction is consistent with
precedent, and the Court did not err in informing the
jury that it could but was not required to infer that
these witnesses’ testimony would have been
unfavorable to Defendants.
ii. Statement by Ricardo Aguirre
Defendants maintain that the Court allowed
impermissible hearsay by allowing Mr. Ramirez to
testify about his conversation with Mr. Aguierre. The
Court finds that Mr. Ramirez’s repetition of Mr.
Aguierre’s statement8 is admissible on two grounds.
First, it is a statement against interest under Fed. R.
Evid. 804(b)(3)(A) (statement against interest is one
that “a reasonable person in the declarant’s position
would have made only if the person believed it to be
true because, when made, it was so contrary to the
Mr. Ramirez’s testimony includes the following statements: I
was approached by Ricardo Aguirre that came to my office, met
with myself and my father and told me that if I wanted to
continue to get work with HISD I needed to pay Larry Marshall
through his girlfriend, which was Joyce Moss-Clay, which he
referred to as his bag lady. So I would pay Joyce Moss-Clay so
she could pay Larry Marshall in order to continue to get work....
He showed me an invoice of how it works as far as an invoice that
he was paying Joyce Moss-Clay. He also showed me a text from
Larry Marshall that—asking where is my check and he also
communicated to me that he had seen a similar text because he
had lunch with Alan Johnston and he received a similar text from
Larry Marshall saying where is my money....
Mr. Aguirre showed me an invoice where he was paying Joyce
Moss-Clay that would in turn pay Larry Marshall.
(Ramirez Trial Tr. 1 at 241-243.)
8

55a

declarant’s proprietary or pecuniary interest or had so
great a tendency to invalidate the declarant’s claim
against someone else or to expose the declarant to civil
or criminal liability”). This hearsay exception applies
because Mr. Aguierre was unavailable. He was
“absent from the trial or hearing and the statement’s
proponent [was not] able, by process or other
reasonable means, to procure ... the declarant’s
attendance or testimony.” Fed. R. Evid. 804(a)(5)(B).
Plaintiff presented excerpts of Mr. Aguierre’s
deposition testimony, but Mr. Aguierre did not testify
at trial. Plaintiff was unable to serve a witness
subpoena on Mr. Aguierre, despite numerous
attempts by a process server to do so. (Black Trial Tr.
at 4-7.)
The statement is also admissible under Rule
801(d)(2)(D) and (E). A statement is not hearsay when
it is “offered against an opposing party and ... was
made by the party’s agent or employee on a matter
within the scope of that relationship and while it
existed; or was made by the party’s coconspirator
during and in furtherance of the conspiracy.” Fed. R.
Evid. 801(d)(2)(D-E). Plaintiff argues, and the Court
agrees, that Mr. Aguierre, at the time that he made
this statement, was part of the pay-to-play scheme
and was furthering Mr. Marshall’s interests. Thus, he
acted as an agent and coconspirator of Mr. Marshall.
For both of the reasons discussed above, the statement
is not hearsay and was properly presented to the jury.
iii. Expert Testimony by Ransom Cornish
Defendants object to Mr. Cornish as an expert and the
admission of his testimony. Mr. Cornish is a certified
56a

public accountant and a lawyer. Most of his practice
focuses on taxes, and he has conducted a number of
audits of small businesses. He has been certified as an
expert in state and federal court, providing testimony
on calculations of monetary damages regarding claims
of business’ economic loss. (Cornish Trial Tr. at 1-22.)
Although Mr. Cornish only once audited a
construction company, and never a JOC contractor,
the Court was correct to certify him as an expert, as
numerous other courts have. See Wellogix, 716 F.3d at
881–82 (expert witness does not need particular
expertise in industry to help jury understand concepts
and terms). Defendants questioned Mr. Cornish about
his methodology, and the jury chose to credit his
testimony. His certification as an expert and the
admission of his testimony were not in error.
G. Qualified Immunity
The jury also found that Mr. Marshall was not
protected by qualified immunity. (Doc. No. 480 at 55.)
Defendants dispute this finding because the law was
not clearly established at the time of his conduct.
According to Defendants, whether Mr. Marshall’s
conduct was illegal hinges on the difference between
lawful influence and unlawful pressure, a distinction
that courts across the country are now contemplating.
See, e.g., McDonnell, 136 S. Ct. 2355; United States v.
Silver, 2017 WL 2978386; Ex parte Perry, 483 S.W.3d
884 (Tex. Crim. App. 2016). Defendants argue that,
because the law is developing even today, it could not
have been clear to Mr. Marshall what conduct was
illegal at the time he allegedly committed the acts in
question. (Doc. No. 505 at 48-49.)

57a

Plaintiff’s theory of the case—which the jury appeared
to accept—is that Mr. Marshall granted favors
(including his vote to award JOC contracts) in
exchange for a bribe.9 McDonnell does not leave room
for an official to vote in a certain way in exchange for
a bribe. Such conduct cannot reasonably be viewed as
a mistaken impression of the law. See also Gil
Ramirez, 786 F.3d at 417 (finding Mr. Marshall
ineligible for a professional immunity provision
because of clearly illegal conduct). The Court upholds
the jury’s verdict regarding the inapplicability of
qualified immunity for Mr. Marshall.
IV. Conclusion
The Court recognizes the importance of these issues
not only to the litigants but also to the public interest.
The distinctions between protected and illegal
conduct, as well as between proper and improper
instructions to the jury, are of utmost importance.
After long reflection, and with the assistance of
excellent argumentation by all parties, the Court finds
that the jury received legally correct instructions and
reached a verdict supported by the evidence. The
Court will not overturn that carefully deliberated
verdict.
Mr. Marshall’s conduct included but was not limited to his vote
for JOC vendors. Plaintiff also presented evidence to suggest that
Mr. Marshall could have pressured and perhaps did pressure
HISD administrators to add a Board agenda item to vote on the
addition of RHJ as a JOC contractor, and to withdraw an agenda
item concerning the extension of JOC contracts for certain
vendors, including GRG. (See Abe Saavedra Deposition Tr. at 41,
47; Eaglin Tr. 1 at 91; Pottinger Trial Tr. at 66, 83, 125.) This
latter action falls closer to the bounds of activity possibly
protected by McDonnell, 136 S. Ct. 2355.
9

58a

The Court GRANTS Ms. Clay’s Motion for Joinder
(Doc. No. 504), DENIES Mr. Medford’s Motion for
Joinder (Doc. No. 516), and DENIES Mr. Marshall’s
Motion for Judgement as a Matter of Law (Doc. No.
505). The Court will rule separately on Plaintiff’s
Motion for Attorney’s Fees (Doc. No. 501).
IT IS SO ORDERED.

59a

IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
____________________
No. 17-20542
____________________
THE GIL RAMIREZ GROUP, L.L.C.; GIL RAMIREZ,
JR.
Plaintiffs – Appellees
v.
LAWRENCE
MARSHALL;
MARSHALL
&
ASSOCIATES; JOYCE MOSS CLAY; JM CLAY AND
ASSOCIATES; FORT BEND MECHANICAL,
LIMITED; FBM MANAGEMENT, L.L.C.; DAVID L.
MEDFORD
Defendants – Appellants
______________________________
Appeal from the United States District Court
for the Southern District of Texas
______________________________
ON PETITIONS FOR REHEARING EN BANC
(Opinion March 15, 2019, 5 Cir., ___, ____ F.3d ___)

60a

Before WIENER, SOUTHWICK, and COSTA, Circuit
Judges.
PER CURIAM:
(√ )
Treating the Petitions for Rehearing En Banc
as Petitions for Panel Rehearing, the Petitions for
Panel Rehearing are DENIED. No member of the
panel nor judge in regular active service of the court
having requested that the court be polled on
Rehearing En Banc (FED. R. APP. P. and 5TH CIR. R.
35), the Petitions for Rehearing En Banc are DENIED.
( ) Treating the Petitions for Rehearing En Banc
as Petitions for Panel Rehearing, the Petitions for
Panel Rehearing are DENIED. The court having been
polled at the request of one of the members of the court
and a majority of the judges who are in regular active
service and not disqualified not having voted in favor
(FED. R. APP. P. and 5TH CIR. R. 35), the Petitions
for Rehearing En Banc are DENIED.

61a

